2012 FISMA Executive Summary
Report




                                     March 29, 2013
                                     Report No. 512

           REDACTED PUBLIC VERSION
                                               UNITED STATES
                             SECURITIES AND EXCHANGE COMMISSION
                                         WASHINGTON, D.C. 20549


     OI'!'ICEOI'
lNStfl!£C1'0R GENERAt




                                         MEMORANDUM
                                              March 29,2013

            To:           Jeff Heslop, Chief Operating Officer, Office of the Chief Operating
                           Officer
                          Thomas A. Bayer, Director/Chief Information Officer, Office of
                            lnforrnqtion Tech ofogy
                                 f/ /         /
                               /"'-''
            From:         Carf                     or Gen.eral, Office of Inspector General
                                                           ~-~'«o




            Subject:      2012 FISMA Executive Summary Report, Report No. 512

            This memorandum transmits the U.S. Securities and Exchange Commission
            (SEC), Office of Inspector General's (OIG) final report detailing the results of our
            2012 FISMA Executive Summary Report. The review was conducted as part of
            our continuous effort to assess management of the Commission's programs and
            operations and as a part of our annual audit plan.

            The report contains 11 recommendations which if fully implemented should
            strengthen the SEC's controls over information security. The Office of the Chief
            Operating Officer and the Office of Information Technology concurred with all the
            recommendations that were addressed to their respective offices. Your written
            response to the draft report is included in Appendix VII.

           Within the next 45 days, please provide the OIG with a written corrective action
           plan that is designed to address the recommendations. The corrective action
           plan should include information such as the responsible official/point of contact,
           timeframes for completing required actions, and milestones identifying how you
           will address the recommendations.




                        REDACTED PUBLIC VERSION 

Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our office.

Attachment

cc:    Elisse B. Walter, Chairman
       Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel Gallagher, Commissioner
       Pamela C. Dyson, Deputy Director/Deputy Chief Information Officer,
         Office of Information Technology
       Todd K. Scharf, Associate Director, Chief Information Security Officer,
         Office of Information Technology




2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page ii

                         REDACTED PUBLIC VERSION
2012 FISMA Executive Summary Report


                                   Executive Summary
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted the services of Networking Institute of
Technology, Inc. (NIT) to conduct the fiscal year 2012 Federal Information
Security Management Act (FISMA) assessment and a review of the SEC’s
security requirements.

FISMA was enacted, in 2002 as Title III of the E-Government Act of 2002, to
recognize the importance of information security to the economic and national
security interests of the United States. 1 The law emphasizes the need for
organizations to develop, document, and implement organization-wide programs
providing security for the information systems supporting the organization’s
operations and assets, as well as information systems provided or managed by
other agencies, contractors, or other sources. FISMA provides the framework
for securing the federal government’s information technology (IT) and requires
agency program officials, chief information officers (CIO), privacy officers, and
inspectors general to conduct annual reviews of the agency’s information
security and privacy programs and report the results to Office of Management
and Budget (OMB). For fiscal year 2012, FISM 12-02 provides instructions to
heads of executive departments and agencies for meeting the fiscal year 2012
reporting requirements. It also requires inspectors general to independently
evaluate and report how their department’s or agency’s CIO, senior agency
official for privacy, and program officials implemented information security
requirements.

The Office of Information Technology (OIT) supports the SEC and its staff in all
areas of IT. The office has overall management responsibility for the Commission's
IT program including application development, infrastructure operations and
engineering, user support, IT program management, capital planning, security,
enterprise architecture, and implementing the SEC’s FISMA requirements. OIT’s
CIO is responsible for developing and maintaining a Commission-wide
information security program. The office also includes a Chief Information
Security Officer (CISO) who, among other things, is responsible for establishing
and maintaining the SEC’s security posture.

Objectives. The overall objective of the 2012 FISMA assessment was to assess
the SEC’s systems and provide OIG with input to the SEC’s response to the

1
    Title III, Publication L, No. 107-347 (December 17, 2002).
2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                                    Page iii

                                   REDACTED PUBLIC VERSION
OMB. The assessment included a review of the SEC’s information security
posture, as required annually by FISMA. The 2012 FISMA assessment included
the following mandated security requirements:

   •   continuous monitoring management
   •   configuration management
   •   identity and access management
   •   incident response and reporting
   •   risk management
   •   security training
   •   plan of action and milestones
   •   remote access management
   •   contingency planning
   •   contractor systems
   •   security capital planning

In addition to the mandated security requirements, NIT independently evaluated
and reported on how the Commission has implemented the following security
requirements:

   •   systems inventory and the quality of the inventory
   •   enterprise security architecture
   •   data and boundary protection
   •   network security protocols

The evaluation criteria for the requirements listed above is based on the National
Institute of Standards and Technology (NIST) standards and industry best
practices. There were no findings related to these requirements.

Results. Our review found that OIT did not fully conduct and document
continuous monitoring in accordance with certain NIST requirements.
Continuous monitoring is the process where organizations develop a strategy
and implement a program for the continuous monitoring of security control
effectiveness. It includes the potential need to change or supplement a control
set, taking into account any proposed/actual changes to the information system
or its operational environment. OIT conducts penetration testing and vulnerability
scanning on a continuous basis and provided NIT with its penetration test
reports. However, we found that penetration testing is not sufficient to meet the
continuous monitoring strategy requirements per NIST Special Publication (SP)
800-137. We also found that OIT did not test some areas between the three-
year certification and accreditation (C&A) assessment cycle, or on a continuous
basis for critical security controls. As a result, OIT’s continuous monitoring
program needs improvement.

2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page iv

                         REDACTED PUBLIC VERSION
Further, we found that OIT configuration management program is generally in
compliance with governing FISMA requirements and NIST guidelines. However,
OIT has not defined baseline configurations and it has not conducted
configuration compliance scanning for                       . OIT implemented
configuration baselines for all                   and it scans all
                                   for baseline configuration compliance and
documents and it approves all deviations from the baseline. Also, OIT did not
implement configuration baselines for                      . OIT began
establishing baselines and implemented compliance scanning for
         in August of 2012 and asserts it is scheduled to be completed with the
process by the end of March 2013. However, OIT has not fully implemented
baseline configurations and compliance scanning                          .

Additionally, OIT has not approved a formal project plan to implement personal
identity verification (PIV) and it has not implemented a technical solution to link
PIV badges to multi-factor authentication. As a result, the SEC is not compliant
with the Federal Information Processing Standards Publication (FIPS) 201-1,
which could expose the Commission to unauthorized access to its information
systems.

Our assessment of the SEC’s risk management strategy found that it does not
address the requirements needed for a comprehensive governance structure and
organizational overall security risk management. Further, it does not address
risk from a mission and business process perspective, as described in the risk
management framework (RMF) identified in NIST SP 800-37, Rev. 1.2. 3 As a
result of not updating the risk management strategy to address NIST guidelines,
the SEC could be exposed to higher risk levels.

Our review also found that Designated Authorizing Officials are not fully involving
the Information System Owners (ISO) in system security categorization as
directed by NIST SP 800-37, Guide for Applying the Risk Management
Framework to Federal Information Systems, A Security Lifecycle Approach, Task
1-1. Not involving the ISO in the categorization process runs the risk of them not
understanding the overall context of the system and the subsequent security
controls needed to properly safeguard agency information. Our review of the
documentation for the systems in our sample universe found that the systems in
our sample had FIPS 199 system security categorizations.

Based on our review we determined that OIT did not tailor its baseline security
controls for specific systems that require such controls. We further found OIT did

2
 NIST SP 800-37, Rev. 1, p. 2, Section 1.2, Purpose and Applicability.

3
 NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal Information 

Systems: A Security Life Cycle Approach (February 2010) p. 2, Section 1.2, Purpose and Applicability.

2012 FISMA Executive Summary Report                                                      March 29, 2013
Report No. 512
                                                Page v

                               REDACTED PUBLIC VERSION

not tailor baseline security controls for the nine information systems in our
sample universe. Also, the system security plan for the systems in our sample
universe did not include OIT’s decision to not tailor during the security control
selection process, nor its rationale for the decision. While OIT has not tailored
baseline security controls, it has identified and selected a generic set of baseline
security controls that are based on the security categorization of the system. OIT
also did not develop formal procedures or instructions regarding tailoring it
baseline security controls in accordance with NIST SP 800-53, Rev. 3 guidelines.

The security awareness training program could be improved by including role-
based training for IT staff in information security. Moreover, IT security
awareness training program does not specify who is required to take role-based
training and there is no enforcement mechanism to ensure IT staff have taken
the correct role-based training, based on duties and responsibilities. The IT
security awareness training program should include role-based training for staff
having information security duties.

Though OIT establishes milestone remediation dates for plan of action and
milestones (POA&M) it did not adhere to specific milestone remediation dates
identified when closing POA&Ms. As a result, POA&Ms are open for an
extended period of time, which puts the Commission at risk if the weakness is not
remediated in a timely manner.

Although OIT has now updated many of its policies, the office did not update the
existing procedures for the 18 control families to ensure compliance with the new
policy. OIT has not developed procedures for risk management, continuous
monitoring management, and information security oversight over systems
operated by SEC contractors and other entities. Though OIT has made progress
in correcting policy deficiencies the lack of procedures could result in OIT
improperly implementing informal procedures that is not consistent with
management’s expectations and current policy.

We further found OIT could improve its process for documenting the interfaces
between the contractor/external systems and SEC-operated systems in its
system inventory. The absence of interface data related to systems within the
system inventory may lead to confusion when making risk-based decisions for
external systems.

OIT did not disable the network accounts for all users who no longer require
access or who no longer work at the SEC. As a result, some users still had
access to the SEC’s network, which put the Commission at a higher risk for
malicious acts.



2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                      Page vi

                         REDACTED PUBLIC VERSION
Finally, OIT had repeat findings and six repeat recommendations from a prior
issued OIG report that have not been fully addressed and were found to still exist
as deficiencies during this review.

Summary of Recommendations. The report contains 11 recommendations
that were developed to strengthen the SEC’s controls over information security.
Our most significant recommendations were having OIT to revise its security
assessment procedures, annually assess a subset of its manager system’s
security controls, and develop and implement a continuous monitoring strategy in
accordance with applicable NIST requirements.

We further recommended OIT continue its implementation of its risk strategy to
ensure risk is addressed at the organization, mission and business, and
information system levels of the risk management framework. The Office of Risk
Management should work with OIT to provide training to management throughout
the Commission regarding their roles and responsibilities related to operating in a
three-tiered risk management framework.

In addition, OIT should develop procedures to obtain documented approval, by
adding a signature block to the security categorization form, from the system
owner and the authorizing official in step one of the risk management framework.

To improve its POA&M tracking, we recommended OIT review all POA&Ms and
update its tracking system to include future remediation dates and ensure
POA&Ms are closed or mitigated to an acceptable level.

Finally, OIT should review all user accounts and disable accounts that are no
longer needed and perform periodic reviews of user accounts and develop
internal controls to ensure periodic reviews of user accounts are performed on
accounts that are terminated.

Management’s Response to the Report’s Recommendations. OIG provided
SEC management with the formal draft report on March 18, 2013. SEC
management concurred with all recommendations in this report. OIG considers
the report recommendations resolved. However, the recommendations will
remain open until documentation is provided to OIG that supports each
recommendation has been fully implemented. SEC management’s response to
each recommendation and OIG’s analysis of their responses are presented after
each recommendation in the body of this report.

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.

2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                      Page vii

                         REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii


Table of Contents ....................................................................................................... viii


Background and Objectives .................................................................................. 1

     Background ....................................................................................................... 1

     Objectives .......................................................................................................... 2


Findings and Recommendations ......................................................................... 3

     Finding 1: OIT’s Continuous Monitoring Program Needs Improvement ............ 3

                  Recommendation 1....................................................................... 6

                  Recommendation 2....................................................................... 6


         Finding 2: OIT Has Not Fully Implemented Baseline Configurations and 

         Compliance Scanning for                    ................................................... 7


         Finding 3: OIT Has Not Implemented Multi-Factor Authentication to the 

         SEC’s PIV Program ............................................................................................ 9


         Finding 4: The SEC’s Risk Management Strategy Does Not Address a 

         Comprehensive Governance Structure or the SEC’s Overall Security

         Risks ................................................................................................................ 12

                           Recommendation 3..................................................................... 14

                           Recommendation 4..................................................................... 14


         Finding 5: OIT Did Not Categorize the SEC’s Information Systems In 

         Accordance with NIST’s Risk Management Framework .................................. 15

                      Recommendation 5..................................................................... 17

                      Recommendation 6..................................................................... 17


         Finding 6: OIT Has Not Tailored Baseline Security Controls for Specific

         Systems ........................................................................................................... 17


         Finding 7: IT Security Awareness Training Program Could be Improved by

         Including Role-Based Training for Staff with IT Duties and Responsibilities .... 21

                       Recommendation 7..................................................................... 23


         Finding 8: OIT Did Not Adhere to the Milestone Remediation Dates

         Identified to Close POA&Ms Having Lower Priority Risks ................................ 24

                        Recommendation 8..................................................................... 26


         Finding 9: OIT Did Not Update its Procedures ................................................. 26

2012 FISMA Executive Summary Report                                                                   March 29, 2013

Report No. 512

                                                      Page viii


                                   REDACTED PUBLIC VERSION
         Finding 10: OIT Did Not Document its Interface Between Contractor and 

         SEC-Operated Systems ................................................................................... 29

                      Recommendation 9..................................................................... 30


         Finding 11: OIT Did Not Terminate/Deactivate Accounts for all SEC

         Employees/Contractors’ Access to Local Area Network Access Who No 

         Longer Work at the SEC .................................................................................. 30

                      Recommendation 10................................................................... 31

                      Recommendation 11................................................................... 32


Tables
     Table 1: Open POA&Ms .................................................................................. 24

     Table 2: Sample POA&Ms .............................................................................. 25

     Table 3: Listing of IT Related SECRs.............................................................. 27

     Table 4: Evaluation Objectives for System Inventory and the Quality of

        the Inventory ............................................................................................... 43

     Table 5: Evaluation Objectives for Enterprise Security Architecture ............... 45

     Table 6: Evaluation Objectives for Data and Boundary Protection .................. 47

     Table 7: Evaluation Objectives for Network Security Protocols ....................... 49

     Table 8: POA&Ms and Remediation Dates ..................................................... 50


Appendices
    Appendix I: Abbreviations................................................................................. 33

    Appendix II: Scope and Methodology............................................................... 35

    Appendix III: Criteria and Guidance ................................................................. 38

    Appendix IV: List of Recommendations ........................................................... 40

    Appendix V: Review of Additional Information Security Requirements ............ 42

    Appendix VI: POA&Ms and Remediation Dates ............................................... 50

    Appendix VII: Management Comments............................................................ 52


Figures
     Figure 1: Risk Management Framework Process Overview............................. 16

     Figure 2: Security Control Selection Process ................................................... 18





2012 FISMA Executive Summary Report                                                           March 29, 2013

Report No. 512

                                                   Page ix


                                  REDACTED PUBLIC VERSION
                       Background and Objectives


Background
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted the services of Networking Institute of
Technology, Inc. (NIT) to conduct the fiscal year 2012 Federal Information
Security Management Act (FISMA) assessment and a review of the SEC’s
security requirements.

FISMA provides a framework for ensuring the effectiveness of information
security controls over federal operations and assets and it serves as a
mechanism for oversight of federal information security programs. 4 Agency
information security programs must provide for among other things, periodic risk
assessments, policies and procedures based on the risk assessments, periodic
testing and evaluation of the effectiveness of policies and procedures, security
planning, security awareness training, and continuity of operations. FISMA also
requires federal agencies have an annual independent evaluation of their
information security program and practices performed. The evaluation is
conducted by the agency’s inspector general or by an independent external
auditor. 5

FISMA also provides the framework for securing the Federal government’s
information technology (IT). FISMA emphasizes the need for organizations to
develop, document, and implement an organization-wide program to provide
information security for the systems supporting its operations and assets. All
agencies must implement FISMA requirements and report annually to the Office
of Management and Budget (OMB).

The Department of Homeland Security Memorandum FISM 12-02 provided
instructions to heads of executive departments and agencies for meeting the
fiscal year 2012 reporting requirements. It also required inspectors general to
independently evaluate and report how their department or agency’s chief
information officer (CIO), senior agency official for privacy, and program officials
implemented information security requirements.

The Office of Information Technology (OIT) supports the SEC and its staff in all
areas of IT. The office has overall management responsibility for the Commission's

4
    Title III, Pub. L, No. 107-347 (December 17, 2002).
5
    Ibid, § 3545(a), (b).
2012 FISMA Executive Summary Report                                    March 29, 2013
Report No. 512
                                                    Page 1

                                   REDACTED PUBLIC VERSION
IT program including application development, infrastructure operations and
engineering, user support, IT program management, capital planning, security,
enterprise architecture, as well as the SEC’s FISMA requirements. OIT’s CIO is
responsible for developing and maintaining a Commission-wide information
security program. The office also includes a Chief Information Security Officer
(CISO) who, among other things, is responsible for establishing and maintaining
the SEC’s security posture.

Objectives
The overall objective of the FISMA assessment was to assess the SEC’s
systems and provide the OIG with input to the SEC’s response to the OMB. The
assessment included a review of the SEC’s information security posture, as
required annually by FISMA. The FISMA assessment addressed the following
mandated security requirements:

   •   continuous monitoring management
   •   configuration management
   •   identity and access management
   •   incident response and reporting
   •   risk management
   •   security training
   •   plan of action and milestones
   •   remote access management
   •   contingency planning
   •   contractor systems
   •   security capital planning

In addition to the mandated security requirements, NIT independently evaluated
and reported on how the Commission has implemented the following security
requirements:

   •   systems inventory and the quality of the inventory
   •   enterprise security architecture
   •   data and boundary protection
   •   network security protocols

The evaluation criteria for the objectives described above was based on National
Institute of Standards and Technology (NIST) standards and industry best
practices.




2012 FISMA Executive Summary Report                                March 29, 2013
Report No. 512
                                      Page 2

                         REDACTED PUBLIC VERSION
                 Findings and Recommendations


Finding 1: OIT’s Continuous Monitoring Program
Needs Improvement
           OIT did not fully conduct and document continuous
           monitoring for security controls in accordance with NIST
           guidelines and does not have a formal continuous monitoring
           program or strategy. As a result, the SEC could implement
           an insufficient security program and is not operating within
           acceptable risk tolerance levels.

OIT has not fully conducted and documented continuous monitoring for security
controls. While OIT assessed all security controls on a three-year Certification
and Accreditation (C&A) assessment cycle and a subset of controls were
inherently tested in between the three-year C&A cycle, some critical security
controls (i.e., access control, physical access control devices) have not been
reviewed in some cases, up to three years. In addition, OIT’s continuous
monitoring strategy is not fully documented.

OIT’s Continuous Monitoring
Continuous monitoring is the process where organizations develop a strategy
and implement a program for the continuous monitoring of security control
effectiveness. It includes the potential need to change or supplement a control
set, taking into account any proposed/actual changes to the information system
or its operational environment. 6 OIT’s SEC’s Operating Procedure (OP) 24-04­
10-03, IT Security Assessment Procedure, issued April 28, 2006, mandates
testing all common, system-specific and hybrid security controls at least every
three years during the authorization period. This procedure does not address
reviewing a subset of controls on a more frequent basis.

NIST Special Publication (SP) 800-37, Revision (Rev.) 1 requires organization
identify critical security controls for ongoing monitoring and select a subset of
security controls for monitoring during the off years of a full C&A assessment
cycle. 7 The C&A process consists of a comprehensive assessment of the
management, operational, and technical security controls in an information
system. It is made in support of security accreditation to determine the extent to
which the controls are implemented correctly, operating as intended, and are
6
    NIST SP 800-37, Rev. 1, p. G-1, Appendix G, Continuous Monitoring.
7
    Ibid.
2012 FISMA Executive Summary Report                                       March 29, 2013
Report No. 512
                                                 Page 3

                                 REDACTED PUBLIC VERSION
producing the desired outcome with respect to meeting the security requirements
for the system. Based on the results of the assessment, a senior agency official
authorizes an information system to operate and explicitly accepts the risk to
agency operations. 8

Further, according to NIST SP 800-137 and NIST SP 800-37, Rev. 1,
organizations should review a subset of their security controls to include
management, operational, and technical security control families, and security
controls that should be evaluated on a rotating basis. Further, critical security
controls should be evaluated more frequent monitoring.

We judgmentally selected 9 of 59 information systems to test the security
controls. We also conducted a limited-review of the SEC’s information security
posture. Our sample universe consisted of the following systems:




Consistent with the requirements in OP 24-04-10-03, our testing found that all the
security controls for the systems in our sample universe were assessed once in
OIT’s three-year C&A assessment cycle. Moreover, we found that access
control, identification and authentication, audit mechanisms, security
configuration settings, physical access control devices, information system
backup operations, incident response capability, and contingency planning were
not tested in between the three-year C&A assessment cycle, or on a continuous
basis for critical security controls. We found that this practice does not meet the
requirements of a continuous monitoring strategy or plan according to NIST SP
800-137, NIST SP 800-37, Rev. 1, and NIST SP 800-53A, Rev. 1.

Although OIT conducts penetration testing and vulnerability scanning on a
continuous basis to monitor the effectiveness critical security controls,
penetration testing and vulnerability scanning do not review all critical security
controls such as physical access control. While penetration testing and
vulnerability scanning identifies system specific controls, it is not sufficient to
meet the continuous monitoring strategy requirements per NIST SP 800-137.
According to NIST SP 800-137, “Organization-wide monitoring cannot be
8
 NIST SP 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems (February
2006), pp. 31-32, Appendix B, Glossary.
2012 FISMA Executive Summary Report                                                    March 29, 2013
Report No. 512
                                               Page 4

                               REDACTED PUBLIC VERSION
efficiently achieved through manual processes alone or through automated
processes alone.” 9

Continuous Monitoring Strategy

In August 2012, OIT issued Policy Directive CIO-PD-08 (CIO-PD-08). The CIO­
PD-08 references continuous monitoring as follows:

        OIT establishes a continuous monitoring strategy and implements a
        continuous monitoring program that includes:

        •	 A configuration management process for the information system
           and its constituent components;
        •	 A determination of the security impact of changes to the 

           information system and environment of operation;

        •	 Ongoing security control assessments in accordance with the
           organizational continuous monitoring strategy; and
        •	 Reporting the security state of the information system to

           appropriate SEC officials based on an assessment of risk

           pertaining to the current threat environment. 10


This policy references OIT’s continuous monitoring strategy. However, OIT has
not developed a formal continuous monitoring strategy or documented its
continuous monitoring program per NIST SP 800-137 and NIST SP 800-37, Rev.
1. NIT was informed that OIT has a continuous monitoring strategy that is in the
early stages of development, but it has not been formalized.

NIST SP 800-137 provides guidance for the development of a continuous
monitoring program. We found that OIT’s continuous monitoring strategy has not
been developed or implemented and OIT has not taken steps to address the
guidance identified in NIST SP 800-37, Rev. 1, which was released in February
2010 and defines the criteria for a continuous monitoring strategy.

For benchmarking purposes, we contacted the National Credit Union
Administration (NCUA), Federal Deposit Insurance Corporation (FDIC), and the
U.S. Commodity Futures Trading Commission (CFTC) regarding their FISMA
related practices and procedure to comply with governing guidance such as
NIST.



9
  NIST SP 800-137, Information Security Continuous Monitoring for Federal Information Systems and

Organizations (September 2011), p. vii.

10
   Policy Directive, Office of Information Technology, CIO Policy Directive, SEC OIT Security Policy

Framework, Policy Number CIO-PD-08 (August 7, 2012), p. 57.

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                                 Page 5

                                REDACTED PUBLIC VERSION
When asked about their compliance with NIST SP 800-137, and learned that
each year NCUA, FDIC, and CFTC assesses a subset of controls or critical
controls as part of their continuous monitoring process. NCUA and FDIC
informed us they have established continuous monitoring programs. While, the
CFTC indicated it is in the process of developing a continuous monitoring
program.

Conclusion
As a result of not fully implementing continuous monitoring and assessing a
subset of its critical security controls at least annually, OIT may not be operating
within acceptable risk tolerance levels because they evaluate security controls
every three years, rather than on a continuous or rotating basis. This could
impact OIT’s security program and result in the office being unable to fully
produce evidence that is needed to determine the full security status of its
information systems. Also, without a documented continuous monitoring
strategy, OIT may not have adequate visibility into organizational assets,
sufficient awareness of treats and vulnerabilities, or effectively deploy security
controls.

   Recommendation 1:

   The Office of Information Technology should revise its information technology
   security assessment procedures to ensure they are consistent with its current
   practices and include verbiage to implement continuous monitoring and
   requirements for on-going assessment of a subset of critical security controls.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.

   Recommendation 2:

   The Office of Information Technology should develop and implement a
   continuous monitoring strategy in accordance with NIST Special Publication
   800-137, Information Security Continuous Monitoring for Federal Information
   Systems and Organizations and NIST Publication 800-37, Revision 1, Guide
   for Applying Risk Management Framework to Federal Information Systems: A
   Security Life Cycle Approach.


2012 FISMA Executive Summary Report                                    March 29, 2013
Report No. 512
                                      Page 6

                         REDACTED PUBLIC VERSION
     Management Comments. OIT concurred with this recommendation. See
     Appendix VII for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation. OIG considers this recommendation resolved. However,
     this recommendation will remain open until documentation is provided to OIG
     that supports it has been fully implemented.


Finding 2: OIT Has Not Fully Implemented
Baseline Configurations and Compliance
Scanning for
        OIT did not define baseline configurations and has not
        conducted configuration compliance scanning for
                .   Improperly configured devices could lead to
        potential weaknesses in OIT’s systems.

NIT found that OIT’s configuration management program is generally in
compliance with governing FISMA requirements and NIST guidelines. However,
OIT has not defined baseline configurations and it has not conducted
configuration compliance scanning for                     .

We confirmed OIT has implemented configuration baselines for all
       . OIT scans all                                                for baseline
configuration compliance and documents and it approves all deviations from the
baseline. 11 Further, we found all                           have baseline
configurations defined, using Center for Internet Security (CIS) standards.
However, there are no allowable exceptions defined and approved for


Although OIT has implemented the configuration baselines for
       , they have not fully implemented configuration baselines and
configuration compliance scanning for
                             . OIT also did not implement configuration baselines
for                    because for the past year the office has focused on
implementing baselines standards and compliance scanning for
       . OIT began establishing baselines and implemented compliance
scanning for                      in August of 2012 and is scheduled to be
completed with the process by the end of March 2013.


11
                                               .
2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page 7

                         REDACTED PUBLIC VERSION
OIT asserted that due to the lack of resources, it has not documented
configuration baselines and conducted compliance scans for                     .
Our review also found that although OIT works toward a 100 percent goal, it does
not maintain a documented list of exceptions to the baseline configuration of
                          . However, we confirmed that OIT documents and
approves deviations from the baseline for                     .

As a result of not having updated configuration baselines for
and approved deviations for                            , OIT could inconsistently
apply configurations to these devices, which could lead to potential weaknesses
in its environment and present increased security related risks to the SEC’s
systems. Additionally, by not conducting compliance scans of                     ,
configuration settings may be altered without the administrator’s knowledge of
the network, devices may not meet minimum configuration requirements. Thus,
it may be impossible to determine if the device configurations are aligned with
approved baseline configurations. Further, OIT’s current
                may not comply with current FISMA and NIST best practices.

NIST Requirements. NIST SP 800-53, Rev. 3 guidelines specifies that
organizations should develop, document, and maintain under configuration
control…a current baseline configuration of the information system. 12 Our review
found that OIT has not defined baseline configurations and while they conduct
compliance scanning for                     , OIT has not conducted configuration
compliance scanning for                      . Although not required, OIT uses a
tool to monitor configurations of the SEC’s                    for unauthorized
changes.

With respect to configuration management NIST SP 800-53, Rev. 3 recommends
that organizations:

        a) Establish and document mandatory configuration settings

           for information technology products employed within the 

           information system using [Assignment: organization-

           defined security configuration checklists] that reflect the 

           most restrictive mode consistent with operational

           requirements;

        b) Implement configuration settings;
        c) Identify, document, and approve exceptions from the 

           mandatory configuration settings for individual

           components within the information system based on 

           explicit operational requirements; and

        d) Monitor and control changes to configuration settings in

12
 NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
Organizations (August 2009), p. F-38.
2012 FISMA Executive Summary Report                                                March 29, 2013
Report No. 512
                                             Page 8

                              REDACTED PUBLIC VERSION
               accordance with the organization’s policies and 

               procedures. 13


Repeat Recommendation from Prior OIG Report
We determined that the remedy for this finding would result in a repeat
recommendation that was previously made in OIG’s 2011 FISMA Executive
Summary Report, Report No. 501, issued in February 2012. Specifically, the
report’s Finding 4 “OIT Has Not Conducted Configuration Compliance Scans and
Needs a Defined Process to Address Compliance Scan Results in a Timely
Manner,” found that OIT’s baseline configurations were outdated and
inconsistent with NIST guidance and OIT did not conduct configuration
compliance scans. 14 OIT concurred with the following recommendation in the
report:

           Recommendation 9: The Office of Information Technology

           should review and document its current standard baseline 

           configuration, including identification of approved deviations

           and exceptions to the standard.


To date this recommendation is still open and OIT has not fully implemented it.
We determined that because OIT is making progress in addressing this
recommendation, a new recommendation will not be made in this report
pertaining to conducting configuration compliance scans for
However, we encourage OIT to fully mitigate the deficiencies identified in the
prior issued OIG report and in this finding and fully implement the
recommendation in a timely manner.


Finding 3: OIT Has Not Implemented Multi-Factor
Authentication to the SEC’s PIV Program
           OIT has not approved a formal project plan to implement
           personal identity verification (PIV) and it has not
           implemented a technical solution to link PIV badges to multi-
           factor authentication. As a result, the SEC is not compliant
           with the Federal Information Processing Standards
           Publication 201-1, Personal Identity Verification (PIV) of




13
     NIST SP 800-53, Rev. 3, p. F-42.
14
     OIG, 2011 FISMA Executive Summary, Report No. 501 (Feb. 2, 2012).
2012 FISMA Executive Summary Report                                          March 29, 2013
Report No. 512
                                                Page 9

                                REDACTED PUBLIC VERSION
         Federal Employees and Contractors. 15 This noncompliance
         could expose the Commission to unauthorized access to its
         information systems.

Our review found that OIT has not approved a formal project plan to implement
PIV and it has not implemented a technical solution to link PIV badges to multi-
factor authentication. Multi-factor authentication for system access is the
process for establishing confidence of authenticity by using two or more factors
to achieve authentication. The Commission is required to have a minimum two
of three factors for multi-factor authentication. The multi-factor authentication
three factors are a:

     (1) Password or a personal identification number (PIN).
     (2) PIV card. 16
     (3) Physical security token, or a biometric 17 feature such as a 

         fingerprint or retina scan.


Homeland Security Presidential Directive-12 (HSPD-12) established control
objectives for the secure and reliable identification of Federal employees and
contractors. The HSPD-12 requirements, issued by President Bush in August
27, 2004, state,

         Not later than 4 months following promulgation of the Standard, the
         heads of executive departments and agencies shall have a
         program in place to ensure that identification issued by their
         departments and agencies to Federal employees and contractors
         meets the Standard. As promptly as possible, but in no case later
         than 8 months after the date of promulgation of the Standard, the
         heads of executive departments and agencies shall, to the
         maximum extent practicable, require the use of identification by
         Federal employees and contractors that meets the Standard in
         gaining physical access to Federally controlled facilities and logical
         access to Federally controlled information systems. Departments
         and agencies shall implement this directive in a manner consistent

15
   Federal Information Processing Standards Publication 201-1, Personal Identity Verification (PIV) of
Federal Employees and Contractors (FIPS 201-1), was issued by NIST on February 25, 2005, and revised
in March 2006.
16
   A PIV card is defined as “[a] physical artifact (e.g., identity card, ‘smart card’) issued to an individual that
contains stored identity credentials (e.g., photograph, cryptographic keys, digitized fingerprint
representation) so that the claimed identity of the cardholder can be verified against the stored credentials
by another person (human readable and verifiable) or an automated process (computer readable and
verifiable).” Federal Information Processing Standards Publication (FIPS Pub.) 201-1, Personal Identity
Verification (PIV) of Federal Employees and Contractors, p. 73, Appendix F.
17
   Biometric is defined as “[a] measurable, physical characteristic or personal behavioral trait used to
recognize the identity, or verify the claimed identity, of an Applicant. Facial images, fingerprints, and iris scan
samples are all examples of biometrics.” FIPS Pub. 201-1, p. 70.
2012 FISMA Executive Summary Report                                                             March 29, 2013
Report No. 512
                                                   Page 10

                                  REDACTED PUBLIC VERSION
        with ongoing government-wide activities, policies and guidance
        issued by OMB, which shall ensure compliance. 18

In addition, FIPS 201-1 guidance for implementing multi-factor authentication
stating,

        PIV Cards must be personalized with identity information for the
        individual to whom the card is issued, in order to perform identity
        verification both by humans and automated systems. Humans can
        use the physical card for visual comparisons, whereas automated
        systems can use the electronically stored data on the card to
        conduct automated identity verification.

Repeat Finding and Recommendation from Prior OIG Report

This finding is consistent with Finding 5, “Multi-Factor Authentication for System
Access Has Not Been Linked to the SEC’s Personal Identity Verification
Program” found in OIG’s 2011 FISMA Executive Summary Report, Report No.
501, issued February 2, 2012. The finding concluded that OIT had not
implemented a technical solution for linking the PIV cards to multi-factor
authentication. OIT concurred with the recommendation in Report No. 501 as
follows:

        Recommendation 13: The Office of Information Technology
        should complete its implementation of the technical solution for
        linking multi-factor authentication to PIV cards for system
        authentication and require use of the PIV cards as a second factor
        authentication factor by December 2012.

To date this recommendation is still open and OIT has not fully implemented it.
OIT staff informed us they are working to address the recommendation. Based
on our assessment, these deficiencies have not been timely mitigated and OIT
still has not developed an effective technical solution to fully implement PIV cards
at the SEC, as a second authentication factor for accessing the Commission’s
information systems. OIT’s proposed technical solution to implement PIV for
logical access was delayed because it did not meet the PIV program’s
requirements in FIPS 201-1.

In addition, OIT has not approved a formal project plan with timelines, resource
allocation, and management has not approved the implementation of PIVs for
logical access to SEC’s systems. OIT informed us they have an informal outline

18
  HSPD-12: Policy for a Common Identification Standard for Federal Employees and Contractors,
paragraph 4.
2012 FISMA Executive Summary Report                                                   March 29, 2013
Report No. 512
                                              Page 11

                              REDACTED PUBLIC VERSION
of tasks that will be conducted. OIT delayed the project plan that was
established to implement PIV for logical access because the proposed technical
solution did not meet the PIV program requirements in FIPS 201-1.

As a result, the SEC is not complying with the requirements that federal
employees and contractors use PIV cards to gain physical access to federally
controlled facilities and logical access to federally controlled information systems.
Not fully implementing a multi-factor authentication could expose the
Commission to unauthorized access to its information systems.

Conclusion
This is a repeat finding that would result in a repeat recommendation from OIG’s
2011 FISMA Executive Summary Report, Report No. 501, February 2, 2012.
Therefore, a new recommendation will not be made pertaining to the technical
solution for linking PIV cards to a multi-factor authentication. However, we
strongly encourage OIT to take steps to mitigate the deficiencies identified in OIG
Report No. 501, Finding 5, recommendation 13 and this finding. OIT should fully
implement this recommendation in a timely manner.


Finding 4: The SEC’s Risk Management Strategy
Does Not Address a Comprehensive Governance
Structure or the SEC’s Overall Security Risks
           The SEC’s risk management strategy does not address the
           requirements needed for a comprehensive governance
           structure and organizational overall security risk
           management. Further, it does not address risk from a
           mission and business process perspective, as described in
           the risk management framework (RMF) identified in NIST SP
           800-37, Rev. 1. 19 As a result of not updating the risk
           management strategy to address NIST guidelines, OIT is
           more likely to be exposed to higher level risks.

OIG’s FISMA 2012 review found OIT’s current risk management strategy still
exists, but only within the context of one tier/level within the NIST RMF. The
other two tiers, mission and business process level and organization level have
not been fully implemented.

NIST SP 800-37, Rev. 1 was released in February 2010 and it changed the

19
     NIST SP 800-37, Rev. 1, p. 2, Section 1.2, Purpose and Applicability.
2012 FISMA Executive Summary Report                                          March 29, 2013
Report No. 512
                                                   Page 12

                                   REDACTED PUBLIC VERSION
traditional C&A process into a six-step RMF. RMF’s focus is a three-tiered
approach to risk management that addresses risk-related concerns in
organization level, the mission and business processes level, and at the
information system levels. 20

OIG’s 2011 FISMA Executive Summary Report, Report No. 501, issued in
February 2012 concluded SEC risk management policy did not adhere to the
requirements for a comprehensive governance structure and organization-wide
risk management strategy. Hence, OIT’s risk management policy did not
address risk from a mission and business process perspective as described in
NIST’s SP 800-37, Rev. 1, released February 2010. 21

Currently, OIT only addresses risk at the information system level. The Office of
Risk Management, located in the Office of the Chief Operating Officer (OCOO),
is responsible for implementing RMF at the mission and business process level
and the organization level. OCOO has a newly hired risk executive who has
oversight of this function. As a whole, the Commission has not fully developed a
comprehensive governance structure and risk management strategy, which is
necessary for facilitating organization-wide security risks at all RMF levels:
organization level, the mission and business process level, and the information
system level.

Although, OCOO’s Office of Risk Management has not fully implemented a risk
management strategy that is fully aligned with NIST SP 800-37, Rev. 1, it is
making progress. Further, while a comprehensive risk management strategy has
not been fully implemented, currently OIT is working on a project to develop and
implement a comprehensive risk management strategy at the information system
level that is scheduled to be completed by January 2014.

Additionally, we found the SEC has not updated work procedures to address the
new requirement to develop a comprehensive risk management strategy.
However, in compliance with NIST guidance OIT conducted risk assessments at
the information system level prior to the release of NIST SP 800-37, Rev. 1.

Conclusion
As a result of not updating its risk assessment strategy to address the RMF’s
identified in NIST SP 800-37, Rev. 1, the Commission has not developed a
comprehensive strategy to manage risk at the organization, the mission and
business, and information system levels. Thus, the Commission could risk not
being able to effectively identify risk and properly allocate resources to address

20
     Ibid, p. 5, Figure 2-1.
21
     Ibid.
2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                       Page 13

                               REDACTED PUBLIC VERSION
weakness and vulnerabilities that could affect the SEC’s information systems,
business processes, or organization effectiveness.

   Recommendation 3:

   The Office of Information Technology should continue to implement the
   existing project for the development and implementation of a comprehensive
   risk management strategy in accordance with NIST Special Publication 800­
   37, Revision 1, Guide for Applying Risk Management Framework to Federal
   Information Systems: A Security Life Cycle Approach, addressing risk at the
   organization level, the mission and business process level and the
   information system level.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.

   Recommendation 4:

   The Office of the Chief Operating Officer should ensure the Office of Risk
   Management coordinates with the Office of Information Technology to provide
   training to management throughout the Commission and educate staff on
   their roles and responsibilities related to operating in a three-tiered risk
   management framework.

   Management Comments. OCOO concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OCOO concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.




2012 FISMA Executive Summary Report                                March 29, 2013
Report No. 512
                                      Page 14

                         REDACTED PUBLIC VERSION
Finding 5: OIT Did Not Categorize the SEC’s
Information Systems in Accordance with NIST’s
Risk Management Framework
        Designated Authorizing Officials are not fully involving the 

        Information System Owners (ISO) in system security

        categorization as directed by NIST SP 800-37, Guide for

        Applying the Risk Management Framework to Federal

        Information Systems, A Security Lifecycle Approach, Task 1­
        1. Not involving the ISO in the categorization process runs

        the risk of them not understanding the overall context of the

        system and the subsequent security controls needed to

        properly safeguard agency information.


Our review of the security test and evaluation (ST&E) documentation for the
systems in our sample universe found all nine systems had FIPS 199 system
security categorizations either in the ST&E documentation or the risk assessment
report. The ST&E is the security document containing the assessment criteria
and the assessment results for the required security controls for each system.
For the systems reviewed in our sample universe, one did not have a ST&E.
Although OIT does not conduct ST&Es for contractor systems, they examine the
ST&Es the contractor completes. 22

The results of the system security categorization influences the selection the
appropriate security controls for information systems, which were included in the
ST&E and where applicable, the minimum assurance requirements for the
system. 23 However, we found the FIPS 199 system security categorizations for the
nine systems in our sample were not approved by the system owners in step one
of RMF, as required by NIST SP 800-37, Rev. 1. 24 Instead, the approvals were
done as part of the system security plan (SSP) review in step five of the RMF. 25
We found OIT’s policy and procedures does not address the requirement for
system owners to conduct system security categorization in step one of RMF.
Figure 1 shown below, illustrates OIT’s system security categorization approval
takes place in step one versus step five of the RMF. 26



22
   NIST SP 800-53A, Rev. 1, Guide for Assessing the Security Controls in Federal Information Systems and 

Organizations (June 2010), p. ix, Preface.

23
   NIST SP 800-37, Rev. 1, p. 21, section 3.1 Task 1-1.

24
   Ibid.

25
   SSP - A formal document that provides an overview of the security requirements for an information 

system and describes the security controls in place or planned for meeting those requirements. NIST SP 

800-18, Rev. 1, p. 39.

26
   NIST SP 800-37, Rev. 1, p. 8, Section 2.1. Figure 2-2.

2012 FISMA Executive Summary Report                                                     March 29, 2013
Report No. 512
                                               Page 15

                               REDACTED PUBLIC VERSION
Figure 1: Risk Management Framework Process Overview




Source: NIST SP 800-37, Rev. 1

NIST Requirements. NIST SP 800-37, Rev. 1, Step 1, System Development
Life Cycle (SDLC), states the system security categorization is to be completed
in either the system development life cycle phase: initiation phase or step one of
the RMF. 27 Further, NIST SP 800-53A, Rev. 1, Guide for Assessing the Security
Controls in Federal Information Systems and Organizations, states all steps in
the RMF should be completed and approved before conducting a security
assessment. 28

Benchmark Results with Other Federal Agencies. Based on our
benchmarking with the NCUA, FDIC, and CFTC, we learned that each agency
signs and approves formal system security categorizations before selecting and
assessing their respective security controls.

Conclusion
As a result of not obtaining an approved signature in step one of RMF, there is
no assurance system security categorization was done prior to the security
assessments being conducted. We were unable to confirm if the system
categorization was completed and whether NIST and management needs were
met. Without formal approval prior to conducting security assessments, the SEC
runs the risk of assessing the system using the incorrect security controls based
on an incorrect system security categorization.
27
     NIST SP 800-37, Rev. 1, p. 21, Section 3.1. Task 1-1.
28
     NIST SP 800-53A, Rev. 1, p. 13, Section 3.1.
2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                                  Page 16

                                  REDACTED PUBLIC VERSION
   Recommendation 5:

   The Office of Information Technology should develop procedures to ensure
   Federal Information Processing Standard 199 system security categorization
   and to properly document the involvement of the information system owner
   (ISO) and the authorizing official, respectively, in step on of the risk
   management framework.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.

   Recommendation 6:

   The Office of Information Technology should revise its Federal Information
   Processing Standard 199 system security categorization form to include
   signature blocks for the system owner and authorizing official.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.


Finding 6: OIT Has Not Tailored Baseline Security
Controls for Specific Systems
       OIT has not tailored baseline security controls for specific
       systems. Not having a tailored control list could result in the
       OIT understating or overstating the security requirements for
       its system and critical controls for certain systems may not
       be identified.

Based on our review we found that OIT has not tailored its baseline security
controls for specific systems that require such controls. We further found OIT did
not tailor baseline security controls for the nine systems in our sample universe.

2012 FISMA Executive Summary Report                                      March 29, 2013
Report No. 512
                                      Page 17

                         REDACTED PUBLIC VERSION
In addition, the SSPs for the systems in our sample universe did not include
OIT’s decision to not tailor during the security control selection process, nor its
rationale for the decision. While OIT has not tailored baseline security controls, it
has identified and selected a generic set of baseline security controls based on
the security categorization of the system. Finally, we found OIT has not
developed formal procedures or instructions for tailoring the baseline security
controls in accordance with NIST SP 800-53, Rev. 3 guidelines.

Figure 2, below summarizes the security control selection process that include
tailoring initial security control baselines and additional modifications that may be
needed to the baseline, based on an organizational assessment of risk. 29

     Figure 2: Security Control Selection Process




     Source: NIST SP 800-53, Rev. 3

Baseline Security Controls Guidance. NIST SP 800-37, Rev. 1 provides
guidelines to organizations to tailor the baseline security controls by applying
scoping, parameterization, and compensating control guidance. Further, NIST
SP 800-37 guides organizations to supplement the tailored baseline security
controls, if necessary, with additional controls and/or control enhancements to
address unique organizational needs based on a risk assessment (either formal
or informal) and local conditions including environment of operation,
organization-specific security requirements, specific threat information, cost-
benefit analyses, or special circumstances. Also, NIST SP 800-37 guides
organizations to specify minimum assurance requirements, as appropriate.
Further, the publication guides organizations document in the security plan, the
decisions (e.g., tailoring, supplementation, etc.) taken during the security control
selection process, providing a sound rationale for those decisions. 30



29
     Ibid, p. 25, Figure 3.2.
30
     NIST SP 800-37, Rev. 1, p. 25, Section 3.2, Task 2-2, Supplemental Guidance.
2012 FISMA Executive Summary Report                                                 March 29, 2013
Report No. 512
                                                 Page 18

                                  REDACTED PUBLIC VERSION
NIST SP 800-37, Rev. 1, defines tailoring as the process by which a security
control baseline is modified based on the application of scoping guidance; the
specification of compensating security controls, if needed; and the specification
of organization-defined parameters in the security controls via explicit
assignment and selection statements. 31

OMB Memorandum M-12-20, FY 2012 Reporting Instructions for the Federal
Information Security Management, question 13 indicates agencies expectations
are to use the baseline as a starting point and tailor the controls based on NIST
SP 800-53, Rev. 3, eliminating or adding controls as necessary.
Per this guidance, OIT is required to tailor baseline security controls, document
tailored controls in the SSP or other security documentation, and provide sound
rationale for tailoring the security selection.

Feedback we received from NCUA, FDIC, and CFTC representatives found
these agencies tailor their baseline security controls, and develop tailored control
lists based on NIST SP 800-53, Rev. 3 guidelines, prior to conducting
assessments. Also, our interview with a NIST RMF subject matter expert found
that tailoring baseline security controls is a required activity in carrying out step
two of RMF, security control selection and specification.

Repeat Recommendations from Prior OIG Report
This finding is consistent with Finding 3 “OIT Has Not Formally Defined a
Tailored Set of Baseline Security Controls and Has Not Tailored Control Sets for
Specific Systems,” found in OIG’s 2011 FISMA Executive Summary Report,
Report No. 501, issued February 2, 2012. The finding concluded that OIT had
not developed formal procedures and instructions for tailoring its baseline
security controls in accordance with the NIST SP 800-53, Rev. 3 guidelines. 32 In
addition, the report found that OIT had not developed a tailored set of baseline
security controls for each applicable system requiring such controls, or as
defined in the SSP or other security documents. The report consisted of the
three recommendations that follow, which OIT fully concurred to implement.

            Recommendation 5: The Office of Information Technology should
            develop and implement formal policy addressing tailoring baseline
            security control sets.

            Recommendation 6: The Office of Information Technology should
            determine whether it should perform the tailoring process at the
            organization level for all information systems (either as the required
            tailored baseline or as the starting point for system-specific
31
     Ibid, p. B-10, Appendix B, Glossary.
32
     NIST 800-53, Rev 3.
2012 FISMA Executive Summary Report                                         March 29, 2013
Report No. 512
                                            Page 19

                                   REDACTED PUBLIC VERSION
       tailoring), at the individual information system level, or using a
       combination of organization-level and system-specific approaches.

       Recommendation 7: The Office of Information Technology should
       tailor a baseline security controls set (with rationale) for applicable
       systems in accordance with the guidance provided by National
       Institute of Standards and Technology, Guide for Applying the Risk
       Management Framework to Federal Information Systems: A
       Security Life Cycle Approach and National Institute of Standards
       and Technology, Recommended Security Controls for Federal
       Information Systems and Organizations.

These recommendations are still open and OIT has not implemented them.
Based on our review, the issues identified in OIG Report No. 501 and discussed
in this finding still exist. To fully resolve this finding, OIT must address these
recommendations.

NIT’s Review of OIT’s Applying NIST Guidelines. Though NIST SP 800-37,
Rev. 1 and NIST SP 800-53, Rev. 3 recommends tailoring security baseline
control sets, OIT elected to use a generic a baseline security control set because
they determined it properly addressed NIST’s guidance. We were informed OIT
did not tailor baseline security controls because determined tailoring is not
required, and using only the generic baseline security control set (based on the
system’s security categorization) to further tailoring is not required.

Our review of C&A packages, SSPs, and other security documents for the nine
systems in our sample universe found no indication baseline security control set
was tailored in accordance with the guidance provided in NIST SP 800-37, Rev.
1 and NIST SP 800-53, Rev. 3. Further, we did not find a consensus amongst
OIT management to ascertain whether OIT should perform the tailoring process
(1) at the organization level for all information systems, (2) at the information
system level, (3) or using a combination of both. We determined OIT’s
interpretation of NIST guidance does not ensure its baseline security control sets
are properly tailored.

Conclusion
OIT uses a generic control set based on security categorization, which could
result in under/overstating the security requirements for its systems. As a result,
critical controls may not be identified for certain systems.

We identified three repeat recommendations in this finding, so no new
recommendations will be made pertaining to tailoring baseline security controls.
OIT should take immediate steps to mitigate the deficiencies identified in OIG
2012 FISMA Executive Summary Report                                     March 29, 2013
Report No. 512
                                      Page 20

                         REDACTED PUBLIC VERSION
Report No. 501, for recommendations 5, 6, 7 and this finding and fully implement
these recommendations in a timely manner.


Finding 7: IT Security Awareness Training
Program Could be Improved by Including Role-
Based Training for Staff with IT Duties and
Responsibilities
            IT security awareness training program does not specify who
            is required to take role-based training and there is no
            enforcement mechanism to ensure Commission staff have
            taken the correct role-based training, based on duties and
            responsibilities. The IT security awareness training program
            should include role-based training for staff having IT
            responsibilities.

The SEC’s United States (U.S.) SEC Learning Management Server application is
used to administer security awareness training, identifies several IT positions, but
it does not include all IT positions that have access to SEC sensitive data or
materials. It also does not have a mechanism users with IT responsibilities can
use to complete role-based training. The application allows employees and
contractors to choose the roles that are best suited for their duties and
responsibilities. In addition, the application does not prevent users from
circumventing appropriate role-based training. Hence, the user does not have to
select a role from the list that is provided.

OIT provides annual privacy and cyber security awareness training to all SEC
employees and contractors, which requires them to access the SEC’s information
systems. This training includes role-based training for IT specialist, IT program
manager, database administrator, network administrator, programmer, and
system administrators. In 2012, the SEC reached 100 percent participation and
compliance in completing the Annual Privacy and Cyber Security Awareness
Training. 33 We found the IT security awareness training program does not
specify who is required to take role-based training and there is no enforcement
mechanism to ensure its staff have taken the correct role-based training, based
on duties and responsibilities.

OIT’s Implementing Instruction (II) 24-04-03-01, IT Security Awareness Training
states, “[role-based] training is required of employees holding certain IT
positions, specifically those having access to, or knowledge of SEC sensitive
33
     The Insider, intranet site for the SEC (August 2012).
2012 FISMA Executive Summary Report                                        March 29, 2013
Report No. 512
                                                    Page 21

                                    REDACTED PUBLIC VERSION
data or materials.” 34 Although, OIT has policy requiring role-based training for
employees in certain IT positions, such as information security, the policy does
not specifically identify the positions.

OIT’s security awareness training does not include role-based training for
persons with duties and responsibilities related to information security, in
accordance with NIST SP 800-16. 35 An example of the roles that are linked to
SEC employees responsibilities include:

     •   authorizing official
     •   information owner
     •   chief information officer
     •   chief information security officer
     •   information systems security officer
     •   risk executive
     •   privacy act official

Role-based training in the security awareness training course is limited to select
technical IT roles (i.e. system administrator) and it does not include other
positions where the staff in the position would have access to sensitive data or
materials.

NIST SP 800-53, Rev. 3 provides guidance for role-based security training and
determines its content based on roles and responsibilities. Specifically,
Awareness and training 3 (AT-3) Security Training states,

         The organization provides role-based security related training: (i)
         before authorizing access to the system or performing assigned
         duties; (ii) when required by system changes; and (iii) [Assignment:
         organization-defined frequency] thereafter.

         Supplemental Guidance: The organization determines the
         appropriate content of security training based on assigned roles
         and responsibilities and the specific requirements of the
         organization and the information systems to which personnel have
         authorized access…36

II 24-04-03-01, IT Security Awareness Training does not define the frequency of
role-based refresher training or the process for tracking role-based training. 37
The instruction states, “[t]he OIT Security Group tracks progress in and

34
   II 24-04-03-01, IT Security Awareness Training, (Dec. 29, 2005), p. 4, Section 5b(1).

35
   NIST SP 800-16, Information Technology Security Training Requirements (April 1998), p. 47, Exhibit 4.3.

36
   NIST SP 800-53, Rev. 3, p. F-22, Security Awareness and Training.

37
   II, IT Security Awareness Training, Policy Number 24-04-03-01 (Dec. 29, 2005), p. 4, Section 5b(1).

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                                Page 22

                                REDACTED PUBLIC VERSION
completion of required training courses.” After conducting interviews and
reviewing documentation, we found OIT does not track progress and completion
of role-based training in accordance with its policy. 38

Conclusion
We determined OIT has not clearly determined what IT staff need role-based
training or information security related training for risk management. Additionally,
OIT management has not defined the course or level of training that is needed
for certain specific roles that are found in the U.S. SEC Learning Management
Server. By not providing proper direction to IT staff with information security
roles to complete role-based training, the employees may not get training that is
best suited for their specific duties and responsibilities. This could result in them
not receiving training needed to aid in understanding their role in implementing
information security at the SEC. Thus, this could potentially lead to IT staff not
fully complying with applicable NIST guidelines.

       Recommendation 7:

       The Office of Information Technology should review and update the existing
       information technology security awareness training program to:

             •	 Include specific role-based training based on the duties and
                responsibilities for staff with information security roles.
             •	 Track the progress and completion of IT staff’s role-based training.

       Management Comments. OIT concurred with this recommendation. See
       Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation. OIG considers this recommendation resolved. However,
       this recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.




38
     Ibid.
2012 FISMA Executive Summary Report                                        March 29, 2013
Report No. 512
                                           Page 23

                              REDACTED PUBLIC VERSION
Finding 8: OIT Did Not Adhere to the Milestone
Remediation Dates Identified to Close POA&Ms
Having Lower Priority Risks
           Though OIT establishes milestone remediation dates for
           plan of action and milestones (POA&M), it did not adhere to
           specific milestone remediation dates identified when closing
           POA&Ms having lower priority risks. As a result, POA&Ms
           are open for an extended period of time, which puts the
           Commission at risk if the weakness is not remediated in a
           timely manner.

Our review found that OIT does not adhere to specific milestone remediation
dates for closing POA&Ms having lower priority risk. We evaluated two sets of
POA&M documents as follows: (1) A GSS POA&M report, dated August 6, 2012,
that identified GSS open and closed POA&Ms from June 2011 to June 2012; 39
and (2) A listing of application POA&Ms that was created in
                                    40
                                       and covered eight major applications from
June 2011 to June 2012.

Our review of POA&Ms documents found a significant number that were not
remediated and exceeded the projected remediation date. OIT asserts these
were all lower priority risk POA&Ms. Specifically, 99 of the 177 POA&Ms we
reviewed were open. Of the 99 that were open, only one had not exceeded the
projected remediation date. The remaining 98 POA&Ms had exceeded the
remediation date by as much as five years. Table 1, shown below illustrates the
inability to close POA&M’s and remediate them by the proposed date.

             Table 1: Open POA&Ms
                                                Number of           Number of POA&Ms
               Information      Open          POA&Ms Past             Not Exceeding
                 Systems       POA&Ms           Projected               Projected
                                             Remediation Date        Remediation Date
               Major               64              63                       1
               Applications
               General             34                 34                       0
               Support
               System
               Total               99                 98                       1

             Source: NIT Generated


39
     Team Track is an automated application used by OIT to track the GSS POA&Ms.
40



2012 FISMA Executive Summary Report                                                March 29, 2013
Report No. 512
                                               Page 24

                                 REDACTED PUBLIC VERSION
Of the 99 total open POA&Ms for the SEC’s information systems, 63 of 64 for
major applications exceeded the projected remediation dates. We further found
one POA&M was 5 years past the remediation date, one was 4 years past the
remediation date, one was 3 years past the remediation date, 39 were 2 years
past the remediation date, and 21 were one year past the remediation date. Our
review of the 34 open POA&Ms for GSS found they all exceeded the projected
remediation date. Our review of the POA&Ms that was not remediated is
detailed in Appendix VI.

Based on the nine systems in our sample we found four had POA&Ms that
exceeded the proposed remediation dates. Table 2 below, identifies the four
systems having proposed remediation dates that exceeded more than a year.

Table 2: Sample POA&Ms
                                                               Projected      Status
                        POA&M                   Remediation
  System Acronym                POA&M Title                   Remediation      as of
                          ID                     Start Date
                                                                 Date        10/9/2012

                                                 09/1/2010    02/28/2011       Open



                                                04/14/2010    09/30/2010       Open


                                                12/22/2008    08/31/2009       Open



                                                12/15/2011    Last Updated     Open
                                                              01/03/2012+
Source: NIT Generated

While we found that OIT has not achieved the proposed remediation dates, OIT
meets weekly and more frequently if needed to review POA&Ms and update the
status or progress on outstanding POA&Ms. OIT indicated POA&Ms are not
always remediated by the proposed dates for several reasons, including but not
limited to lack of resources and changing priorities. OIT informed us that it uses
a risk approach when determining which POA&Ms may be delayed or do not
achieve their proposed remediation dates.

Even though OIT addressed some POA&Ms by their proposed remediation dates
based on risk, by not addressing POA&M in a timely manner could lead to
increased risk to the Commission information systems if the POA&M is not
remediated in a timely manner. For example, we found a POA&M open for two
years, which could potentially create a risk to the SEC for the

2012 FISMA Executive Summary Report                                     March 29, 2013
Report No. 512
                                      Page 25

                           REDACTED PUBLIC VERSION
NIST SP 800-53, Rev. 3, security assessment and authorization CA-5, plan of
action and milestones, states an organization should develop “a plan of action
and milestones for the information system to document the organization’s
planned remedial actions to correct weaknesses or deficiencies noted during the
assessment of the security controls and to reduce or eliminate known
vulnerabilities in the system; and…” 42

     Recommendation 8:

     The Office of Information Technology should review all plan of action and
     milestones (POA&M) and update its POA&M’s tracking system to include
     future remediation dates and ensure POA&Ms are closed or mitigated to an
     acceptable level.

     Management Comments. OIT concurred with this recommendation. See
     Appendix VII for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation. OIG considers this recommendation resolved. However,
     this recommendation will remain open until documentation is provided to OIG
     that supports it has been fully implemented.


Finding 9: OIT Did Not Update its Procedures
         OIT issued a new policy handbook, but did not update its
         procedures to ensure compliance with the new policy
         handbook. As a result, OIT staff could inconsistently apply
         informal and undocumented policies within the IT
         environment.

OIG’s 2011 FISMA Executive Summary Report, Report No. 501, issued February
2012, found OIT’s documented FISMA policies and procedures were outdated.
In August 2012, OIT issued Policy Directive CIO-PD-08 (CIO-PD-08). 43 CIO-PD­

41
   List of Application POA&Ms document created in                                                       for
the eight major applications, within the June 2011 to June 2012 time frame.
42
   NIST SP 800-53, Rev. 3, p. F-35, Security Assessment and Authorization, CA-5.

43
   Policy Directive, Office of Information Technology, CIO Policy Directive, SEC OIT Security Policy

Framework, Policy Number CIO-PD-08 (August 7, 2012).

2012 FISMA Executive Summary Report                                                         March 29, 2013
Report No. 512
                                                 Page 26

                                 REDACTED PUBLIC VERSION
08 supplements existing SEC policies. In issuing CIO-PD-08, OIT is in the
process of rescinding previously issued policies that cover many of the areas
covered in the handbook. Below, Table 3 shows the list of Securities and
Exchange Commission Regulation (SECR) OIT provided us, that we found OIT is
in the process of rescinding.

               Table 3: Listing of IT Related SECRs
                 SECR                          Title
                   24.04         Information Technology Security Program
                  24-04.01       Security Policy, Program Management, and
                                 Organizational Security
                  24-04.02       IT Security Asset Management and FISMA Inventory
                                 Management Program
                  24-04.03       IT Security Human Resources Program

                  24-04.04       IT Security Operations and Communications Security
                                 Management Program
                  24-04.05       IT Security Physical and Environment Protection
                                 Plan
                  24-04.06       IT Security Access Management Plan

                  24-04.07       Information Security Incident Management

                  24-04.08       IT Security Activities for Information System
                                 Acquisition, Development, and Maintenance
                  24-04.09       IT Security Business Continuity Management
                                 Program
                  24-04.10       IT Security Certification and Accreditation

               Source: NIT Generated.

Although OIT has now updated many of its policies, the office did not update the
existing procedures for the 18 control families to ensure compliance with the new
policy. In addition, OIT has not developed procedures for risk management,
continuous monitoring management and information security oversight over
systems operated by SEC contractors and other entities, although this was
identified in OIG’s 2011 FISMA Executive Summary report as non-existent. 44
Though OIT has made progress in correcting policy deficiencies the lack of
procedures could result in OIT improperly implementing informal procedures that
is not consistent with management’s expectations and current policy.

According to NIST SP 800-53, Rev. 3, an organization should develop,
disseminate, and review/update, as frequently as the organization policy
specifies, the following:

44
   The Commission is required to update procedures to reflect the agency defined frequency of three years
as noted in the OIT’s IT Security Compliance Program Policy, the individual policy’s or procedure’s defined
frequency as noted in the specific policy or procedure, and current NIST guidelines.
2012 FISMA Executive Summary Report                                                        March 29, 2013
Report No. 512
                                                Page 27

                                REDACTED PUBLIC VERSION
         a) A formal, documented policy that addresses purpose, scope,
            roles, responsibilities, management commitment, coordination
            among organizational entities, and compliance;

         b) Formal, documented procedures to facilitate the implementation
            of the policy and associated controls. 45

Repeat Finding and Recommendation from Prior OIG Report
This finding is consistent with Finding 1, “OIT’s FISMA Policies and Procedures
Are Outdated or Nonexistent” found in OIG’s 2011 FISMA Executive Summary
Report, Report No. 501, issued February 2, 2012. The finding concluded that
OIT’s FISMA policies and procedures were outdated and the office lacked
documented procedures for risk management, continuous monitoring
management, and information security oversight over systems. OIT concurred
with the recommendation in Report No. 501 as follows:

         Recommendation 1: The Office of Information Technology (OIT)
         should develop and implement a detailed plan to review and update
         OIT security policies and procedures and to create OIT security
         policies and procedures for areas that lack formal policy and
         procedures.

This recommendation is still open and OIT has not fully implemented it. Based on
our review, the issues identified in OIG Report No. 501 and discussed in this
finding still exist. To fully resolve this finding, OIT must address this
recommendation.

Conclusion
We determined OIT should ensure it conducts procedure reviews and updates in
accordance with organization-defined timeframes. OIT has procedures that need
updating. As such, OIT staff may not properly apply OIT’s policies within IT’s
environment and may not receive proper guidance on implementing OIT policy,
current NIST guidance and OIT management’s expectations for implementing
controls throughout the Commission.



45
   NIST SP 800-53, Rev. 3, p. F-92, Risk Assessment (RA-1), p. F-38, Configuration Management (CM-1),
p. F-61, Incident Response (IR-1), p. F-21, Awareness and Training (AT-1), p. F-32, Security Assessment
and Authorization (CA-1), p. F-2, Access Control (AC-1), p. F-47, Contingency Planning (CP-1), p. F-54,
Identification and Authentication (IA-1). Each of the control families defines policy and procedures in level
one of the control.
2012 FISMA Executive Summary Report                                                          March 29, 2013
Report No. 512
                                                 Page 28

                                 REDACTED PUBLIC VERSION
This finding contains a repeat finding, so a new recommendation will be made
pertaining to outdated policies and procedures. OIT should take immediate steps
to mitigate the deficiencies identified in OIG Report No. 501, for recommendation
1 and this finding and fully implement the recommendation in a timely manner.


Finding 10: OIT Did Not Document its Interface
Between Contractor and SEC-Operated Systems
        OIT did not document the interfaces between the
        contractor/external systems and SEC-operated systems in
        its system inventory. The absence of interface data related
        to systems within the system inventory may lead to
        confusion when making risk-based decisions for external
        systems.

We reviewed four inventory compliance workbook updates for the reporting
system inventories as of January 27, 2012; March 16, 2012; May 11, 2012; and
June 29, 2012. 46 Our review determined that interfaces between the contractor,
external systems and organization-operated systems were not identified in the
system inventory. We determined there should be a separate column identifying
contractor interfaces within the inventory compliance workbook, but none exists.
We concluded that OIT does not identify interfaces between contractor, external
systems and organization-operated systems within the inventory compliance
workbook. OIT’s C&A coordinator acknowledged he was unaware of FISMA’s
requirement to identify system interfaces in the system inventory, inventory
compliance workbook.

FISMA, Section 3505 Requirements. FISMA, Section 3505, requires the head
of the agency to develop an inventory of major information systems including
“…an identification of the interfaces between each such system and all other
systems or networks, including those not operated by or under the control of the
agency.” 47 48 In addition, NIST SP 800-53, Rev. 3 states “[t]he organization
develops and maintains an inventory of its information systems”. 49




46
   An inventory compliance workbook contains an inventory of the information systems within an agency.

47
   OMB, Memorandum A-130 Revised (OMB A-130), section 6(u), Definitions, “The term "major information

system" means an information system that requires special management attention because of its importance 

to an agency mission; its high development, operating, or maintenance costs; or its significant role in the 

administration of agency programs, finances, property, or other resources.”

48
   Title III, Pub. L, No. 107-347, section 3505(c)(2).

49
   NIST 800-53, Rev. 3, p. G-3, Program Management (PM)-5.

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                                Page 29

                                REDACTED PUBLIC VERSION
Conclusion
Without a proper and accurate inventory compliance workbook containing
all major information systems, including interfaces between SEC and all
sources (internal and external), OIT cannot effectively protect the
Commission’s network in the event an external system is compromised.
In addition, the absence of interface data related to systems within the
inventory compliance workbook can lead to confusion when making risk
based decisions for external systems.

   Recommendation 9:

   The Office of Information Technology should identify and update the systems
   inventory list to include interface data for external systems.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.


Finding 11: OIT Did Not Terminate/Deactivate
Accounts for all SEC Employees/Contractors’
Access to Local Area Network Access Who No
Longer Worked at the SEC
       OIT did not disable the network accounts for all users (SEC
       employees/contractors) who no longer require access or
       who no longer work at the SEC. As a result, some users still
       had access to the SEC’s network, which put the Commission
       at a higher risk for malicious acts.

We determined OIT did not terminate or disable user accounts for users (SEC
employees/contractors) who no longer required access or who no longer worked
at the SEC. This occurred due to oversight or timing issues. By not disabling
these accounts, unauthorized employees/contractors can have access to the
SEC’s network and putting the SEC at a higher risk for malicious acts. Our
review of user accounts from August 1, 2012 to October 31, 2012, for 74 SEC
employees and 132 SEC contractors who no longer work at the SEC found OIT
2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                      Page 30

                         REDACTED PUBLIC VERSION
did not terminate or deactivate one SEC employee user account and nine
contractor user accounts. Our review of user accounts consisted of only network
access.

SEC policy requires OIT disable user accounts immediately. 50 The directive
states, “When personnel are terminated from the SEC, access to SEC
information and information systems will be disabled immediately following
established procedures for various contingencies. SEC, upon termination of
individual employment: Terminates information system access and…” 51
Further, NIST SP 800-53, Rev. 3, requires agencies disable user accounts after
they separate from the agency, within the agency’s defined frequency.
Consistent with NIST 800-53, Rev. 3, the SEC OIT Security Policy Framework
directive states, “...SEC manages information system accounts, including:
Notifying account managers when temporary accounts are no longer required
and when information system users are terminated, transferred, or information
system usage or need-to-know/need-to-share changes; Deactivating: (i)
temporary accounts that are no longer required; and (ii) accounts of terminated
or transferred users; …Reviewing accounts at least annually. 52 NIST SP 800-53,
Rev. 3 also requires agencies disable user accounts after they separation within
the organization-defined time period of inactivity. 53

     Recommendation 10:

     The Office of Information Technology should conduct a full review of all user
     accounts to determine if any were used after an employee or contractor either
     no longer required access to SEC’s systems or was no longer employed by
     the SEC, and ensure the accounts are disabled.

     Management Comments. OIT concurred with this recommendation. See
     Appendix VII for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation. OIG considers this recommendation resolved. However,
     this recommendation will remain open until documentation is provided to OIG
     that supports it has been fully implemented.




50
   Policy Directive, Office of Information Technology, CIO Policy Directive, SEC OIT Security Policy

Framework, Policy Number CIO-PD-08 (August 7, 2012), pp. 12-13.

51
   Ibid.

52
   Policy Directive, Office of Information Technology, CIO Policy Directive, SEC OIT Security Policy

Framework, Policy Number CIO-PD-08 (August 7, 2012), pp. 28-29.

53
   NIST SP 800-53, Rev. 3, p. F-56, IA-4, Letter e.

2012 FISMA Executive Summary Report                                                         March 29, 2013
Report No. 512
                                                 Page 31

                                 REDACTED PUBLIC VERSION
   Recommendation 11:

   The Office of Information Technology should strengthen its internal controls to
   ensure user accounts are properly terminated or disabled for employees or
   contractors who either no longer require user access or are not employed
   with the SEC.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VII for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.




2012 FISMA Executive Summary Report                                 March 29, 2013
Report No. 512
                                      Page 32

                         REDACTED PUBLIC VERSION
                                                                         Appendix I


                              Abbreviations




           C&A                Certification and Accreditation
           CFTC               U.S. Commodity Futures Trading
                              Commission
           CIO                Chief Information Officer
           CIS                Center for Internet Security
           CISO               Chief Information Security Officer


           DAA                designated approving authority
           DHS                Department of Homeland Security
           DNSSEC             Domain Name Security Extension


           FDIC               Federal Deposit Insurance Corporation
           FIPS               Federal Information Processing
                              Standard
           FISMA              Federal Information Security
                              Management Act
           GSS                General Support System
           HSPD-12            Homeland Security Presidential
                              Directive-12


           II                 Implementing Instruction
           IPv6               Internet Protocol Version 6
           IPSec              Internet Protocol Security

           ISO                Information System Owners System
                              owners and designated authorizing
                              System owners and designated
                              authorizing officials are not approving
           IT                 Information Technology


           NCUA               National Credit Union Administration

2012 FISMA Executive Summary Report                                     March 29, 2013
Report No. 512
                                      Page 33

                         REDACTED PUBLIC VERSION
                                                                         Appendix I


           NIST               National Institute of Standards and
                              Technology
           NIT                Networking Institute of Technology, Inc.
           OIG                Office of Inspector General
           OIT                Office of Information Technology
           OMB                Office of Management and Budget
           OP                 Operating Procedure
           PIN                Personal Identification Number
           PIV                Personal Identity Verification
           PM                 Program Management
           POA&M              Plan of Action and Milestones
           Rev.               Revision
           RMF                Risk Management Framework
           SEC or             Securities and Exchange Commission
           Commission
           SECR               Securities and Exchange Commission
                              Regulation
           SDLC               System Development Life Cycle
           SP                 Special Publication
           SSP                System Security Plan
           ST&E               Security Test and Evaluation
           TIC                Trusted Internet Connections
           TLS                Transport Layer Security
           U.S.               United States
           WAP                Wireless Access Points




2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page 34

                         REDACTED PUBLIC VERSION
                                                                       Appendix II


                     Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.

Scope. NIT conducted this review from June 2012 to December 2012. The
scope of the review consisted of the following areas specified in OMB’s fiscal
year 2012 FISMA reporting instructions:

   •   continuous monitoring management
   •   configuration management
   •   identity and access management
   •   incident response and reporting
   •   risk management
   •   security training
   •   plan of action and milestones
   •   remote access management
   •   contingency planning
   •   contractor systems
   •   security capital planning

In addition to the security mandated requirements, NIT independently evaluated
and reported on how the Commission has implemented the following security
requirements:

   •   systems inventory and the quality of the inventory
   •   enterprise security architecture
   •   data and boundary protection
   •   network security protocols

The evaluation criteria for the requirements listed above was based on NIST
standards and industry best practices. Appendix V shows the specific evaluation
criteria used for evaluating the security requirements.

Methodology. The overall objective of the 2012 FISMA assessment was to
assess the SEC’s systems and provide the OIG with input to the Commission’s
response to Department of Homeland Security (DHS) Memorandum FISM 12-02
and FY 2012 Inspector General Federal Information Security Management Act


2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                      Page 35

                         REDACTED PUBLIC VERSION
                                                                                         Appendix II

Reporting Metrics. 54 To meet this objective, we reviewed and evaluated the
SEC’s implementation of information security requirements and provided the OIG
the results of its assessment and its recommended responses for submission to
OMB through Cyberscope (OMB’s online FISMA reporting system) and for
compiling this report. Based on interviews conducted, documentation we
reviewed, and support documentation provided by Commission staff, NIT
developed its responses to the FISMA questionnaire. Using NIT’s assessment
and recommendations, the OIG submitted its responses to the 2012 FISMA
questionnaire through Cyberscope to OMB.

We conducted a review of the SEC’s information security program based on
guidance issued by OMB, DHS, and NIST and completed the data collection
instruments required for 2012 FISMA reporting, performed the necessary
evaluation procedures to answer questions published by OMB and DHS in its
reporting guidance, and compiled this executive summary report for the SEC
OIG.

To complete OIG’s portion of the annual FISMA questionnaire, we interviewed
key OIT personnel such as the information system owners, OIT staff, and
stakeholders. We further examined governing policies, procedures, and other
related documentation to address the evaluation objectives.

Also, we contacted representatives from NCUA, FDIC, and CFTC regarding their
FISMA related practices and procedure to comply with governing guidance such
as NIST. We benchmarked the SEC’s reviewed controls against those at the
NCUA, FDIC, and the CFTC. Our review of policies and procedures also
included discussions with SEC officials to discuss and confirm our findings.

Additionally, we reviewed OIT’s C&A packages, including POA&Ms, SSPs, risk
assessments, ST&Es, C&A memoranda, and applicable policies and procedures,
to determine OIT’s compliance with OMB, FISMA, and NIST guidelines. Finally,
we reviewed documentation related to the scope of the fiscal year 2012 annual
FISMA assessment. Overall, our analysis was based on information from
interviews, support documentation, artifacts, governing guidance and our
expertise.

Management Controls. Consistent with the objectives of this review we did not
assess OIT’s management control structure or its internal controls. We reviewed
existing controls at the Commission considered specific to the 2012 FISMA OIG
questionnaire. To thoroughly understand OIT’s management controls pertaining
to its policies and procedures and methods of operation we relied on information


54
  U.S. Department of Homeland Security, National Cyber Security Division, Federal Network Security, FY
2012 Inspector General Federal Information Security Management Act Reporting Metrics, March 6, 2012.
2012 FISMA Executive Summary Report                                                    March 29, 2013
Report No. 512
                                              Page 36

                               REDACTED PUBLIC VERSION
                                                                                        Appendix II


requested from and supplied by OIT staff members and information from
interviews with various OIT personnel.

Use of Computer-Generated Data. We did not assess the reliability of OIT’s
computers because it did not pertain to our objectives for this review. Further,
we did not perform any tests on the general or application controls over OIT’s
automated systems because such tests were not within the scope of our work.
The information was retrieved from these systems as well as the requested
documentation provided to us, was sufficient, reliable, and adequate to use in
meeting our stated objectives.

Prior OIG Reports. NIT reviewed the 2011 FISMA Executive Summary, which
has thirteen recommendations. 55 OIT has implemented and closed two of these
recommendations, but 11 remain open. While NIT found OIT is working on
addressing the open recommendations, as noted in this report, weaknesses still
exist. In addition, we reviewed the GAO 2012 Financial Audit and concurred OIT
does not adequately ensure network accounts are terminated or deactivated
once access is no longer required, in multiple instances. 56

Judgmental Sampling. As required by FISMA, we conducted a limited-scope
review of the Commission’s information security posture. The review consisted
of a review of the security assessment packages for a judgmental sample of 9 of
59 SEC systems to review its security controls, that were agreed upon between
the OIT and NIT. The sample universe of information systems selected for the
FY 2012 FISMA consisted of the GSS,
                                        We based the judgmental sample on a
limited-scope review of both internal and external systems found in the SEC’s
system inventory.




55
  OIG, 2011 FISMA Executive Summary, Report No. 501 (Feb. 2, 2012).

56
  Fiscal Year 2012 Agency Financial Report, pp. 51-52, A more detailed report will be published in April

2013 report entitled “Management Report: Improvements Needed in SEC's Internal Controls and Accounting 

Procedures”.

2012 FISMA Executive Summary Report                                                    March 29, 2013
Report No. 512
                                              Page 37

                               REDACTED PUBLIC VERSION
                                                                    Appendix III


                       Criteria and Guidance

Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. Requires Federal agencies to develop, document, and implement an
agency-wide program providing security for the information and information
systems supporting the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.

DHS Memorandum FISM 12-02, FY 2012 Reporting Instructions for the
Federal Information Security Management Act and Privacy Management
Act. Provides instructions to agencies for meeting fiscal year 2012 reporting
requirements under FISMA.

U.S. Department of Homeland Security, National Cyber Security Division,
Federal Network Security, FY 2012 Inspector General Federal Information
Security Management Act Reporting Metrics. Provides general instructions
under each control area for the OIG questions for Cyberscope reporting.

NIST Special Publication 800-16, Information Security Training
Requirements. Provides guidance for security training and implementation.

NIST Special Publication 800-18, Revision 1, Guide for Developing Security
Plans for Federal Information Systems. Provides guidance for improving
protection of information system resources.

NIST Special Publication 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations. Provides
guidance related to the steps in the risk management framework addressing
security control section.

NIST Special Publication 800-53A, Revision 1, Guide for Assessing the
Security Controls in Federal Information Systems and Organizations
(companion guideline to NIST Special Publication 800-53). Covers the security
control assessment and continuous monitoring steps in the risk management
framework and provides guidance on the security assessment process.

NIST Special Publication 800-37, Revision 1, Guide for Applying the Risk
Management Framework to Federal Information Systems: A Security Life
Cycle Approach. Provides guidance for applying the risk management
framework to Federal information systems.



2012 FISMA Executive Summary Report                                 March 29, 2013
Report No. 512
                                      Page 38

                         REDACTED PUBLIC VERSION
                                                                     Appendix III


NIST Special Publication 800-137, Information Security Continuous
Monitoring for Federal Information Systems and Organizations. Assist
agencies in the development of a continuous monitoring strategy and the
implementation of a continuous monitoring program.

NIST Special Publication 800-39, Managing Information Security Risk:
Organization, Mission, and Information System View. Provides guidance for
an integrated, organization-wide program for managing information security risk
to organizational operations.

Homeland Security Presidential Directive-12 (HSPD-12), Policies for a
Common Identification Standard for Federal Employees and Contractors.
Provides guidance and details for implementing a common identification standard
throughout Federal agencies.

Federal Information Processing Standard Publication 199 (FIPS 199),
Standards for Security Categorization of Federal Information and
Information Systems. Provides guidance on the proper categorization of an
information system based on the security level of the information contained in the
system.

Federal Information Processing Standard Publication 200 (FIPS 200),
Minimum Security Requirements for Federal Information and Information
Systems. Outlines the minimum security requirements for the security of Federal
information system.

Federal Information Processing Standard Publication 201-1 (FIPS 201-1),
Personal Identity Verification (PIV) of Federal Employees and Contractors.
Outlines the HSPD-12 requirements.




2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page 39

                         REDACTED PUBLIC VERSION
                                                                     Appendix IV


                    List of Recommendations
Recommendation 1:

The Office of Information Technology should revise its information technology
security assessment procedures to ensure they are consistent with its current
practices and include verbiage to implement continuous monitoring and
requirements for on-going assessment of a subset of critical security controls.

Recommendation 2:

The Office of Information Technology should develop and implement a
continuous monitoring strategy in accordance with NIST Special Publication 800­
137, Information Security Continuous Monitoring for Federal Information Systems
and Organizations and NIST Special Publication 800-37, Revision 1, Guide for
Applying Risk Management Framework to Federal Information Systems: A
Security Life Cycle Approach.

Recommendation 3:

The Office of Information Technology should continue to implement the existing
project for the development and implementation of a comprehensive risk
management strategy in accordance with NIST Special Publication 800-37,
Revision 1, Guide for Applying Risk Management Framework to Federal
Information Systems: A Security Life Cycle Approach, addressing risk at the
organization level, the mission and business process level and the information
system level.

Recommendation 4:

The Office of the Chief Operating Officer should ensure the Office of Risk
Management coordinates with the Office of Information Technology to provide
training to management throughout the Commission and educate staff on their
roles and responsibilities related to operating in a three-tiered risk management
framework.

Recommendation 5:

The Office of Information Technology should develop procedures to ensure
Federal Information Processing Standard 199 system security categorization and
to properly document the involvement of the information system owner (ISO) and


2012 FISMA Executive Summary Report                                  March 29, 2013
Report No. 512
                                      Page 40

                         REDACTED PUBLIC VERSION
                                                                      Appendix IV

the authorizing official, respectively, in step on of the risk management
framework.

Recommendation 6:

The Office of Information Technology should revise its Federal Information
Processing Standard 199 system security categorization form to include
signature blocks for the system owner and authorizing official.

Recommendation 7:

The Office of Information Technology should review and update the existing
information technology security awareness training program to:

   •	 Include specific role-based training based on the duties and

      responsibilities for staff with information security roles.

   •	 Track the progress and completion of IT staff’s role-based training.

Recommendation 8:

The Office of Information Technology should review all plan of action and
milestones (POA&M) and update its POA&M’s tracking system to include future
remediation dates and ensure POA&Ms are closed or mitigated to an acceptable
level.

Recommendation 9:

The Office of Information Technology should identify and update the systems
inventory list to include interface data for external systems.

Recommendation 10:

The Office of Information Technology should conduct a full review of all user
accounts to determine if any were used after an employee or contractor either no
longer required access to SEC’s systems or was no longer employed by the
SEC, and ensure the accounts are disabled.

Recommendation 11:

The Office of Information Technology should strengthen its internal controls to
ensure user accounts are properly terminated or disabled for employees or
contractors who either no longer require user access or are not employed with
the SEC.
2012 FISMA Executive Summary Report                                   March 29, 2013
Report No. 512
                                      Page 41

                         REDACTED PUBLIC VERSION
                                                                                        Appendix V


             Review of Additional Information Security
                         Requirements

In addition to the Cyberscope requirements, we independently evaluated how the
SEC implemented the following security requirements:

     •   systems inventory and the quality of the inventory
     •   enterprise security architecture
     •   data and boundary protection
     •   network security protocols

The evaluation criteria we used was based on NIST standards and industry best
practices. Our evaluation criteria was selected based on the Fiscal Year 2012
CIO FISMA Reporting Metrics, 57 NIST SP 800-53, Rev. 3, 58 NIST SP 800-37,
Rev. 1, 59 and NIST SP 800-39. 60

Systems Inventory and the Quality of the Inventory
Background. System inventory is a basic tool used to identify, track, and
monitor information systems requiring security assessments. For each system
requiring a FIPS 199 analysis, a corresponding entry should exist in the system
inventory list. In addition, the system inventory list should identify if the system is
a GSS, major application system, cloud computing system, or externally hosted
system. An important part of this process is to ensure systems are properly
inventoried in accordance with the FIPS 199 system categorization.

Results. We determined the SEC has a comprehensive system inventory
process and OIT issued the policy handbook, Policy Directive CIO-PD-08, SEC
OIT Security Policy Framework, in August 2012, which addresses system
inventory. However, many of the procedures are outdated and should be
revised.

We found OIT tracks and maintains systems within the system inventory
(compliance workbook). Systems requiring C&As are tracked on a tab in the
systems inventory, “Accredited Systems.”

57
   US Department Homeland Security, National Cyber Security Division, Federal Network Security (February
14, 2012). FY 2012, Chief Information Officer, Federal Information Security Management Act, Reporting
Metrics.
58
   NIST SP 800-53, Rev. 3.
59
   NIST SP 800-37, Rev. 1.
60
   NIST SP 800-39.
2012 FISMA Executive Summary Report                                                    March 29, 2013
Report No. 512
                                              Page 42

                               REDACTED PUBLIC VERSION
                                                                                           Appendix V



We determined OIT added systems to the system inventory (compliance
workbook) during the planning phase and that were removed during the
retirement phase of the SDLC. Hence, OIT has a formal retirement process to
remove systems from the inventory. At various points during the SDLC, items
impacting the system inventory list can change, such as system categorizations,
new systems, and contractor systems not in compliance with required baseline
security controls, which would modify the inventory list.

An important part of this system inventory process is to ensure systems are
properly inventoried in accordance with the system categorization. We found
OIT reviews information categorization if a system is going through re­
authorization as part of the C&A cycle or when the system goes through a major
change such as personally identifiable information.

Below, Table 4 illustrates the evaluation objectives NIT used to evaluate systems
inventory, the quality of inventory, and the results of our evaluation by objectives.

Table 4: Evaluation Objectives for Systems Inventory and the Quality of
the Inventory
                  Evaluation Objectives
                                                                                 Results
 Documented policies and procedures for systems inventory        The Office of Information Technology has
                                                                 policies and procedures that address
                                                                 systems inventory and quality of the
                                                                 inventory. However, the procedures are
                                                                 outdated and should be revised.
 For each of the FIPS 199 systems categorized impact levels      The Commission has one GSS and 86
 (H = High, M = Moderate, L = Low), What is the total            major systems, and the total number of
 number of Organization information systems by                   information systems is categorized by
 Organization component (i.e. Bureau or Sub-Department           organizational component.
 Operating Element)?                                             .

 How does the SEC track systems that require C&As?               The Office of Information Technology
 (Reference: CIO FISMA Metrics Section 1-2)                      tracks systems within the system inventory
                                                                 (compliance workbook).
 For each of the FIPS 199 system categorized impact levels,      There are two systems across the
 what is the total number of Organization operational, and       categorized impact levels that are using
 information systems using cloud services by Organization        cloud services by the Commission. Those
 component (i.e. Bureau or Sub-Department Operating              two systems are
 Element)? (Reference: CIO FISMA Metrics, Section 1-2)
                                                                                           Both are
                                                                 moderate impact systems and both are in
                                                                 production status at the Commission.
 At what portion of the SDLC are systems added to and or         The Office of Information Technology adds
 removed from the system inventory list? (Reference: NIST        information systems to the system
 SP 800-37, Task 1-3)                                            inventory (compliance workbook)during the
                                                                 planning phase of the SDLC.
 Are there “trip-wires” in place within the SDLC or continuous   At various points during the SDLC, items
 monitoring program to add, modify, or remove the system in      that impact the system inventory list can

2012 FISMA Executive Summary Report                                                        March 29, 2013
Report No. 512
                                                 Page 43

                                REDACTED PUBLIC VERSION
                                                                                        Appendix V


                    Evaluation Objectives
                                                                              Results
 the inventory list?                                         change, which modify the inventory.
 (Reference: NIST SP 800-37, Task 1-3)

 How often the information categorization of the system is   Information categorization is only reviewed
 reviewed, updated, changed, etc.? Who is involved in that   if the system is going through a re­
 process? What are the circumstances that determine a        authorization via a regular cycle or major
 change to system inventory? (Reference: NIST SP 800-37,     change. The individuals involved in the
 Task 1-1)                                                   process are the C&A manager, the system
                                                             owner, and the systems engineer.
Is there a formal retirement process in place at the         There is a formal retirement process in
organization to remove systems from the systems              place at the Commission to remove
inventory? (Reference: NIST SP 800-37, Task 6-7)             systems from the inventory.
Source: NIT Generated

Conclusion. The SEC controls are adequate for systems inventory and the
quality of the inventory. There were no findings related to systems inventory.

Enterprise Security Architecture
Background. "The enterprise architecture developed by the organization is
aligned with the Federal Enterprise Architecture. The integration of information
security requirements and associated security controls into the organization’s
enterprise architecture helps to ensure security considerations are addressed by
organizations early in the system development life cycle and are directly and
explicitly related to the organization’s mission/business processes. This also
embeds into the enterprise architecture, an integral security architecture
consistent with organizational risk management and information security
strategies. Security requirements and control integration are most effectively
accomplished through the application of the Risk Management Framework and
supporting security standards and guidelines. The Federal Segment Architecture
Methodology provides guidance on integrating information security requirements
and security controls into enterprise architectures.” 61

NIST SP 800-53 provides the following guidance pertaining to enterprise security
architecture:

       Control—Program Management: PM-7 Enterprise Architecture 62

Results. NIT determined the SEC has an established enterprise security
architecture program. OIT issued the handbook, Policy Directive CIO-PD-08,
SEC OIT Security Policy Framework, in August 2012, which addresses

61
      NIST SP 800-53, Rev. 3, p. G-4
62
     Ibid.
2012 FISMA Executive Summary Report                                                     March 29, 2013
Report No. 512
                                               Page 44

                                  REDACTED PUBLIC VERSION
                                                                                       Appendix V


enterprise security architecture. However, our review found the documented
enterprise security architecture procedures are outdated based on the SEC’s
defined three-year frequency found in the OIT’s IT Security Compliance Program
Policy. Also, our determination was based on OIT’s procedures that define
frequency as noted in the specific procedure.

NIT determined the SEC’s enterprise architecture strategic plan aligns with the
Federal approach related to enterprise architecture. OIT identifies strategic
elements supporting the enterprise architecture at the SEC. We also determined
that the OIT’s security and privacy efforts are integrated into the enterprise
architecture plan.

Shown below is Table 5, which contains the evaluation objectives we used to
evaluate enterprise security architecture and the results by evaluation objective.

Table 5: Evaluation Objectives for Enterprise Security Architecture
                   Evaluation Objectives                                     Results
 Does the agency enterprise architecture (EA) policy and         The Office of Information
 procedures address security and privacy                         Technology has policies and
 requirements?(Reference: NIST SP 800-53, Rev. 3, PM-7)          procedures that address
                                                                 enterprise security
                                                                 architecture. However, the
                                                                 procedures are outdated and
                                                                 should be revised.
 Is the existing organization’s enterprise architecture plan     The Commission’s enterprise
 in line with the Federal enterprise architecture plan?          architecture strategic plan is in
 (Reference: NIST SP 800-53, Rev. 3, PM-7, NIST 800-39,          line with the Federal approach
 Section 2.4.2)                                                  to enterprise architecture.
 Does the agency address security and privacy                    The Commission’s enterprise
 requirements in the context of the mission and business         architecture strategy plan
 processes as part of the enterprise architecture?               addresses security and privacy
 (Reference: NIST SP 800-53, Rev. 3, PM-7, NIST 800-39,          as part of the enterprise
 Section 2.4.2)                                                  architecture.
 Does the agency enterprise architecture include an              The Office of Information
 embedded information security architecture that describes       Technology has a plan
 the integration of security and privacy requirements for        identifying the various
 providing traceability from the highest-level strategic goals   elements that support
 and objectives of organizations, through specific               enterprise architecture at the
 mission/business protection needs, to specific information      Commission.
 security solutions provided by people, processes, and
 technologies?(Reference: NIST SP 800-53, Rev. 3, PM-7,
 NIST 800-39, Section 2.4.2)
Source: NIT Generated

Conclusion. The controls the SEC uses are adequate for enterprise security
architecture. We had no findings in this area.

2012 FISMA Executive Summary Report                                                    March 29, 2013
Report No. 512
                                             Page 45

                              REDACTED PUBLIC VERSION
                                                                                           Appendix V



Data and Boundary Protection
Background. Data and boundary protection is the means used to assess the
security of Federal data in various environments (i.e., mobile devices and email).
The organization’s information systems need to monitor and control
communications at the external boundary of the system and at key internal
boundaries within the system; and connect to external networks or information
systems only through managed interfaces consisting of boundary protection
devices arranged in accordance with the organization security architecture.

Mobile devices and unencrypted e-mail are a primary source of loss for sensitive
data and are also an easy way to carry malware back into the intranet
environment. The use of encryption of data at rest or in motion is vital to protect
data’s confidentiality, integrity and/or availability. NIST SP 800-53, Rev. 3
provides the following guidance pertaining to data and boundary protection:

     Control—System and Communications Protection: SC-7 Boundary
     Protection 63

Results. NIT determined the SEC has data and boundary protection protocols in
place to protect data at rest and data in transit. We further found the collection of
physical and logical security controls is sufficient to protect data at rest at the
Commission. Data in transit is protected using various encryption methods such
as Transport Layer Security (TLS), Internet Protocol Security (IPsec), and Secure
Sockets Layer (SSL), which are cryptographic protocols providing communication
security over the Internet.

Further, Trusted Internet Connection (TIC) 1.0 capabilities were implemented
and certified, in accordance with FISMA requirements. However, TIC 2.0
capabilities have not been implemented and there is no current requirement to
implement TIC 2.0.

OIT uses            a product scanning email messages for spoofed email, to
scan inbound e-mail messages and to ensure mail identified as “spoofed” is not
forwarded. 64 The SEC’s email systems properly implements sender verification
(anti-spoofing) technologies when sending messages. OIT does not allow
attachments with an executable file extension (i.e. .exe) into its mail system.
Additionally, users cannot run .exe files at the SEC.


63
  NIST SP 800-53, Rev. 3, pp. F-108 – F-111.

64
  Spoofed email is email which the sender address and other parts of the email header are altered to 

appear as though the email originated from a different source.

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                                Page 46

                                REDACTED PUBLIC VERSION
                                                                                           Appendix V


NIT found OIT conducts scheduled scans for unauthorized wireless access
points (WAP) connected to the SEC network at least two times per month.

Table 6 consists of the evaluation objectives NIT used to evaluate data and
boundary protection, as well as the results listed by evaluation objective.

    Table 6: Evaluation Objectives for Data and Boundary Protection
                    Evaluation Objectives                                     Results
     How does the SEC protect data at rest? (Reference:           The collection of security
     NIST SP 800-53, Rev. 3, SC-28)                               technology that makes up the
                                                                  enterprise protects the data at
                                                                  rest.
     How does the SEC protect data in transit? (Reference:        Data in transit is protected by SSL
     NIST SP 800-53, Rev. 3, IA-2 (8))                            v3 and TLS encrypted tunnels.
     Does the SEC use encryption technology to protect            Data in transit is protected using
     email when sending messages to government agencies           various encryption methods such
     or the public? (Reference: CIO FISMA Metrics, Section        as TLS, IPsec, and SSL, which
     6.1)                                                         are cryptographic protocols
                                                                  providing communication security
                                                                  over the Internet.
     How does the SEC manage its PKI Certificate Authority?       PKI support is managed by a
     (Reference: CIO FISMA Metrics, Section 6.2)                  Federal or commercial shared
                                                                  service provider.
     Which TIC 1.0 Capabilities have been implemented by          TIC 1.0 capabilities have been
     SEC? (Reference: CIO FISMA Metrics, Section 7.1)             implemented and certified at the
                                                                  Commission, in accordance with
                                                                  FISMA requirements.
     Has the SEC implemented any of the TIC 2.0                   The TIC 2.0 capabilities have not
     Capabilities? If so which ones? (Reference: CIO FISMA        been implemented; however, as of
     Metrics, Section 7.1)                                        this report, there is no current
                                                                  requirement to implement TIC 2.0.
     Is there a formal Project Plan developed to implement        The TIC 2.0 capabilities have not
     TIC 2.0 Capabilities? (Reference: CIO FISMA Metrics,         been implemented; however, as of
     Section 7.1)                                                 this report, there is no current
                                                                  requirement to implement TIC 2.0.
     Has the SEC deployed Einstein, Einstein 2? Einstein 3?       Einstein 3 is deployed at the
     (Reference: CIO FISMA Metrics, Section 7.2)                  Commission.
     What is the percentage of external network traffic to/from   The percentage of external traffic
     the SEC that passes through the TIC/MTIPS?                   to/from the TIC/MTIPS is 100%.
     (Reference: CIO FISMA Metrics, Section 7.3)
     What types of external network traffic to/from the SEC       Not applicable. See previous
     that does not pass through the TIC? (Reference: CIO          response above.
     FISMA Metrics, Section 7.3)
     How many email systems are used by the SEC? What             There is only one email system
     are they? (Reference: CIO FISMA Metrics, Section 7.7)        used by the Commission, and that
                                                                  is Exchange 2010.
     What type of (anti-spoofing) technologies are                The Commission uses Ironport, a
     implemented by SEC e mail systems? (Reference: CIO           product that scans email
     FISMA Metrics, Section 7.6)                                  messages for spoofed email, to
                                                                  scan inbound e-mail messages
                                                                  and to ensure mail identified as
                                                                  “spoofed” is not forwarded.
     What is the percentage of SEC email systems that             The percentage of email systems

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                               Page 47

                               REDACTED PUBLIC VERSION
                                                                                           Appendix V


                    Evaluation Objectives                                    Results
     implement sender verification (anti-spoofing)              that implement sender verification
     technologies when sending messages? (Reference: CIO        (anti-spoofing) is 100%.
     FISMA Metrics, Section 7.6)
     How does the SEC email system implement sender             All of the Commission’s email
     verification (anti-spoofing) technologies? (Reference:     systems implement sender
     CIO FISMA Metrics, Section 7.6)                            verification (anti-spoofing)
                                                                technologies when sending
                                                                messages.
     Does the SEC have the capability to check incoming         The Commission does not allow
     email traffic where the link/attachment is                 attachments with an executable
     executed/opened in a sandbox/virtual environment in-line   file extension (i.e. .exe) into the
     to ascertain whether or not it is malicious, and           mail system. Additionally, users
     quarantined as appropriate, before it can be opened by     cannot run .exe files at the
     the recipient? (Reference: CIO FISMA Metrics, Section      Commission.
     7.7)
     Does the SEC conduct scheduled scans for                   The Office of Information
     unauthorized wireless access points (WAP) connected to     Technology conducts scheduled
     an SEC network? What tool is used? How frequently?         scans for unauthorized wireless
     (Reference: CIO FISMA Metrics, Section 7.8)                access points (WAP) connected to
                                                                the SEC network.
     What is the percentage of hardware assets which are in     One hundred percent of the
     facilities where WAP scans are conducted? (Reference:      hardware assets are included in
     CIO FISMA Metrics, Section 7.8)                            those scans.
     What network boundary devices are assessed by an           The Office of Information
     automated capability to ensure that they continue to be    Technology conducts scheduled
     adequately free of vulnerabilities and are adequately      scans for unauthorized WAP
     configured as intended, such as to adequately protect      connected to the SEC network at
     security? (Reference: CIO FISMA Metrics, Section 7.12)     least two times per month.
    Source: NIT Generated

Conclusion. The controls in place at the Commission are adequate for data and
boundary protection, and there were no findings related to data and boundary
protection.

Network Security Protocols
Background. Network security protocols should be in place at the organization
establishing usage restrictions and implementation guidance for Internet access.
The need for security and privacy has led to several security protocols and
standards. Domain Name System Security Extension (DNSSEC) is used at the
Federal level.

Results. NIT found the OIT uses DNSSEC to prevent the pirating of government
domain names. We determined OIT is capable of using Internet Protocol Version
6 (IPv6); however, there are no requirements for the office to implement IPv6.
OIT is capable and ready to upgrade to IPv6 by fiscal year 2014, and is using the
Department of Homeland Security (DHS) tool to inspect for DNSSEC and IPv6

2012 FISMA Executive Summary Report                                                       March 29, 2013
Report No. 512
                                             Page 48

                              REDACTED PUBLIC VERSION
                                                                                  Appendix V


compliance. Finally, OIT has taken steps to ensure DNSSEC certificates do not
expire.

Table 7, shown below, contains the evaluation objectives NIT used to evaluate
network security protocols and our results are listed by the evaluation’s objective.

Table 7: Evaluation Objectives for Network Security Protocols
                   Evaluation Objectives                                 Results
 Does the SEC use the Domain Name System Security             The Commission uses
 Extension (DNSSEC) at the Federal level to prevent the       DNSSEC to prevent the
 pirating of government domain names? (Reference: CIO         pirating of government
 FISMA Metrics, Section 11.1a)                                domain names.
 Has the SEC upgraded public/external facing servers and      The Commission is capable
 services (e.g. web, email, DNS, ISP services, etc.) to       of using        however, as of
 operationally use native IPv6 by the end of FY 2012?         this report, there is no current
 (Reference: CIO FISMA Metrics, Section 11.1)                 requirement to implement

 Is there a plan in place to upgrade internal client          The Commission is capable
 applications that communicate with public Internet servers   and ready to upgrade to IPv6
 and supporting enterprise networks to operationally use      by fiscal year 2014.
 native IPv6 by the end of FY 2014?(Reference: CIO FISMA
 Metrics, Section 11.2)
 Does the SEC use any of the tools offered by                 The Commission is using a
 DHS/NPPD/NCSD/FNS to enable organizations to inspect         DHS tool inspecting for
 for DNSSEC and IPv6 compliance? If so which tools?           DNSSEC and IPv6
 (Reference: CIO FISMA Metrics, Section 11 (FY 2012           compliance.
 target))
 What steps are taken by SEC to ensure that DNSSEC            The Commission has steps to
 certificates do not expire if not updated by the owning      ensure the DNSSEC
 Organization? (Reference: CIO FISMA Metrics, Section 11      certificates do not expire.
 (FY 2012 target))
Source: NIT Generated

Conclusion. The controls in place at the Commission are adequate for network
security protocols, and there were no findings.




2012 FISMA Executive Summary Report                                              March 29, 2013
Report No. 512
                                           Page 49

                            REDACTED PUBLIC VERSION
                                                                    Appendix VI


               POA&Ms and Remediation Dates

Table 8: POA&Ms and Remediation Dates
                                                           Up-                  No. of Years 

                                                  No. of    to-                     Past

                  POA&M Document        No. of
 System Name                                      Open     Date    Comments      Projected

                     Reviewed          POA&Ms
                                                 POA&Ms                         Remediation

                                                           Y   N
                                                                                    Date




2012 FISMA Executive Summary Report                                 March 29, 2013
Report No. 512
                                      Page 50

                         REDACTED PUBLIC VERSION
                                                                       Appendix VI

                                                              Up-                  No. of Years
                                                     No. of    to-                     Past
                        POA&M Document     No. of
 System Name                                         Open     Date    Comments      Projected
                           Reviewed       POA&Ms
                                                    POA&Ms                         Remediation
                                                              Y   N
                                                                                       Date




Source: NIT Generated
2012 FISMA Executive Summary Report                                    March 29, 2013
Report No. 512
                                         Page 51

                             REDACTED PUBLIC VERSION
                                                                                                                 Appendix VII


                                       Management Comments




                                                        MEMOR A N D U M
                                                             March 26, 20 1 3



To:                     J a cqu e lin e Wil son , A ssis t a nt Inspector G e n e ra l for Aud its , Office of Inspector Gene ral

From :                 ;}ft!'~P. Chief ~~.?ffice~ --~~;'l.3
                        Thomas A .     B~hief Informa tio n O fficer, Office                 of Informa t ion T e chnology

Subject:                Management Respon se. 2 01 2 F I S MA E x ecutive Summa ry, R eport No. 512



Thank you for the opportunity to comment on the recommendations in the report annotat ed
above, as we work together for t he integrity and efficiency of the Commission. We appreciate
the Office of Inspector General's insights and a r e p r ovidi ng t he official response f r om the Office
of I nformation T echnology (OIT) .


Recom men dati o n 1 : " T he Office of Information T echnology should revise its information
technology security assessment procedures a r e cons isten t w ith its current practices and include
ve r biage to implement continuous monitoring and re quire m e nts for on-goi ng assessment of a
subset of critical secur ity con t rols ."

M a n a g e m e nt R e sponse : OIT concurs with the recornmendation . OIT Securi ty is currently
updating its pol icies and proce dur es to include v erbiage to directly address the continuous
monitorin g program.



Rec omm e n d a t i o n 2: " The Office of I nformation Technology should develop a n d implement a
continuous monitoring strategy in accordance with N IST publication 800- 137, Information
Security Continuous M onitoring for F e d e ral Informa tion Systems a nd Orga niz ations and NIST
Publication 800- 37, Revision 1 , Guide for Applying Ris k M a nagement F r a mework to Federal
Information Systems: A Security L ife Cycle Approach."

Man agem e n t Re s pon s e : OIT concurs with t he recommendation.



Recommendation 3 : " The Office of I nformation Technology shou ld continue to i m p lemen t th e
e x isting project for the dev e lopment an d i mplementation of a compre hensive r i sk management
s t rateg y in accordance with NIS T Special Publ ication 800- 3 7, revis ion 1 , Guide for Applying
Risk Management F ramework to Federal Information Systems: A Security Life Cycle Approach,


1
    Pa m e la C. Dyso n , D e puty Chi e f Inform a tion Officer, Offi ce o f I n f o rmati on Techno lo g y




    2012 FISMA Executive Summary Report                                                                           March 29, 2013
    Report No. 512
                                                                 Page 52

                                             REDACTED PUBLIC VERSION
                                                                                Appendix VII




addressing risk at the organization level, the mission and business process level and the
information system level."

Management Response: OIT concurs with the recommendation and is in the final stages of the
existing project.



Recommendation 4: "The Office of the Chief Operatir,tg Officer should ensure the Office of Risk
Management coordinates with the Office of Information Technology to provide training to
management throughout the Commission and educate staff on their roles and responsibilities
related to operating in a three-tiered risk ll'!anagement framework."

Management Response: OCOO concurs with the recommendation. OCOO Operational Risk
Management is currently coordinating with the Office of Information Technology to update
policies and will coordinate to provide training to management throughout the Commission and
educate staff on their roles and responsibilities related to operating in a three-tiered risk
management framework.



Recommendation 5: "The Office of Information Technology should develop procedures to
ensure FIPS 199 system security categorization requirements and to properly document the
involvement of the information system owner (ISO) and the authorizing official, respectively, in
step one of the risk management framework."

Management Response: OIT concurs with the recommendation and will take steps to ensure
the participation of the ISO in the categorization process, as well as documenting their
involvement.



Recommendation 6: "The Office of Information Technology should revise its FIPS 199 system
security categorization form to include signature blocks for the system owner and authorizing
official."

Management Response: OIT concurs with the recommendation.



Recommendation 7: "The Office of Information Technology should review and update the
existing information technology security awareness training program to:

           •   Include specific role-based training based on the duties and responsibilities for
               staff with information security roles.
           •   Track the progress and completion of IT staffs role-based training ."

Management Response: OIT concurs with the recommendation.




 2012 FISMA Executive Summary Report                                            March 29, 2013
 Report No. 512
                                           Page 53

                             REDACTED PUBLIC VERSION
                                                                             Appendix VII




Recommendation 8: "The Office of Information Technology should review all plan of action and
milestones (POA&M) and update its POA&M's tracking system to include future remediation
dates and ensure POA&Ms are closed or mitigated to an acceptable level."

Management Response: OIT concurs with the recommendation.



Recommendation 9: "The Office of Information Technology should identify and update the
systems inventory list to include interface data for external systems."

Management Response: OIT concurs with the recommendation and will ensure interface data
for external systems is recorded explicitly in the systems inventory.



Recommendation 10: "The Office of Information technology should conduct a full review of all
user system accounts and disable or delete those that no longer require access."

Management Response: OIT concurs with the recommendation.



Recommendation 11: "The Office of Information Technology should strengthen its internal
controls to ensure user accounts are properly terminated or disabled for employees or
contractors who either no longer require user access or are not employed with the SEC."

Management Response: OIT concurs with the recommendation.



In addition to the Recommendations listed above, some prior-year recommendations were still
outstanding and carried over from OIG's 2011 F/SMA Executive Summary Report, Report No.
501. issued in February 2012.

OIT is actively working on all existing, open Recommendations and is fully committed to
resolving them as expeditiously and effectively as possible.




 2012 FISMA Executive Summary Report                                          March 29, 2013
 Report No. 512
                                          Page 54

                            REDACTED PUBLIC VERSION
                     Audit Requests and Ideas 


The Office of Inspector General welcomes your input. If you would like to request
an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N. E.
Washington D.C. 20549-2736

T el.#: 202-551-6061
F ax#: 202-772-9265
Email: oig@sec.gov




      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
